<html>
<title> - RESPONDING TO PAKISTAN'S IDP CRISIS</title>
<body><pre>[Senate Hearing 111-150]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-150
 
                   RESPONDING TO PAKISTAN'S IDP CRISIS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NEAR EASTERN AND 
                    SOUTH AND CENTRAL ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 29, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                  U.S. GOVERNMENT PRINTING OFFICE
53-273                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, OKLAHOMA
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON NEAR EASTERN AND        
                SOUTH AND CENTRAL ASIAN AFFAIRS        

          ROBERT P. CASEY, Jr., Pennsylvania, Chairman        

CHRISTOPHER J. DODD, Connecticut     JAMES E. RISCH, Idaho
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
EDWARD E. KAUFMAN, Delaware

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Ali, Imtiaz, Jennings Randolph Senior Fellow, United States 
  Institute of Peace, Washington, DC.............................    39
    Prepared statement...........................................    41
Brause, Jon, Deputy Assistant Administrator, Bureau for 
  Democracy, Conflict, and Humanitarian Assistance, U.S. Agency 
  for International Development, Washington, DC..................    14
    Prepared statement...........................................    17
Casey, Hon. Robert P., Jr., U.S. Senator from Pennsylvania, 
  opening statement..............................................     1
    Report from Oxfam International dated July 28, 2009..........     2
Chamberlin, Hon. Wendy, president, Middle East Institute, former 
  Ambassador to Pakistan, Washington, DC.........................    34
    Prepared statement...........................................    35
Schwartz, Hon. Eric, Assistant Secretary for Population, Refugees 
  and Migration, Department of State, Washington, DC.............     6
    Prepared statement...........................................     9

                                 (iii)

  


                  RESPONDING TO PAKISTAN'S IDP CRISIS

                              ----------                              


                        WEDNESDAY, JULY 29, 2009

                           U.S. Senate,    
           Subcommittee on Near Eastern and
                   South and Central Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert P. 
Casey, Jr. (chairman of the subcommittee) presiding.
    Present: Senators Casey, Feingold, Cardin, Shaheen, 
Kaufman, Corker, Risch, and Barrasso.

        OPENING STATEMENT OF HON. ROBERT P. CASEY, JR.,
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. This hearing of the Committee on Foreign 
Relations, the Subcommittee on Near Eastern and South and 
Central Asian Affairs, will now come to order.
    I want to welcome everyone this morning. Thank you for 
being here. We're trying to get started pretty close to the 
hour. And thank you for taking the time to be with us.
    Today, our subcommittee meets to assess the scope of the 
internally displaced persons, or as we know them, by the 
acronym IDPs. This is a crisis that confronts the people of 
Pakistan in the aftermath of a sustained army offensive to 
drive Taliban extremists out of the Swat Valley and neighboring 
regions.
    In recent days, we've seen the start of small-scale returns 
of IDPs back to their homes, but the situation remains fragile. 
There are still reports of isolated fighting. And for all the 
success of the Pakistani military in regaining control of the 
area, none of the extremist leaders were arrested or killed 
during the military operations of the past 2 months.
    While precise numbers are difficult to pin down, experts 
assess that more than 2 million--more than 2 million--civilians 
have been forced from their homes after a series of Pakistani 
military offensives in the Federally Administered Tribal Areas, 
as we know as the FATA, and, more recently, the North West 
Frontier Province, home to the Swat Valley. The scale of this 
IDP crisis is underscored by the fact that it is the largest 
movement of civilians on the subcontinent since the bloody 
events of the 1947 partition.
    We must also recognize that this IDP crisis did not just 
emerge suddenly this spring after the Pakistani Army went into 
the Swat Valley to oust Taliban militants. Nearly half of the 
450,000 residents of the Massoud territories of South 
Waziristan were driven from their homes by a prior military 
incursion in the early part of 2008. This IDP crisis has been 
building now for some time.
    Given so much suffering that takes place around the world, 
and given the large sums of U.S. assistance we already provide 
to Pakistan, it is natural to question why an IDP crisis there 
materially affects the interests of the United States. I would 
offer at least two compelling reasons.
    First, the humanitarian dimensions of this emerging 
catastrophe are, indeed, vivid. And I want to give you some 
examples in a couple of moments. Up to 90 percent of the 
displaced individuals have been welcomed into the homes of 
distant relatives, a byproduct of the proud tradition of 
hospitality that exists there. However, a small but significant 
number of IDPs are located in sweltering camps, where the 
temperature often rises to an unbearable 110 degrees. The 
families who are in these camps often do not have enough time 
to take more than their rudimentary possessions, leaving them 
at the mercy of government assistance. Although the camps so 
far have not proven to be vectors for disease epidemics, that 
threat remains.
    And I'd also offer--I'll make this part of the record, 
among other things we offer today as part of the record--a 
report from Oxfam International, dated July 28 of this year.
    [The article submitted for the record follows:]

    Pakistan: Three Months After Clashes Began, Oxfam International 
   Emphasizes Need for Voluntary and Safe Returns of Displaced People

  FOCUS GROUP FINDINGS SHOW DISPLACED WOMEN FEAR RETURN TO UPPER SWAT 
                                DISTRICT

    Three months after the clashes in Pakistan's Northwest Frontier 
Province (NWFP) began, aid agency Oxfam International emphasized the 
right of Internally Displaced People (IDPs) to return voluntarily and 
the need to establish sustainable security in their home villages. 
Oxfam International praised the Government for agreeing to uphold 
international standards on the return of IDPs, but said a clear 
information campaign is needed to help displaced people make informed 
decisions about returning. Now in the third week of the Government's 
phased plan for returns, there are an estimated 1.5 million displaced 
people yet to be repatriated who need reassurance that their safety 
will be respected and humanitarian assistance will continue.
    After speaking to nearly 100 IDP women in focus group discussions 
held in camps and host communities over the last two weeks, Oxfam 
International found that despite a strong desire to return home, many 
still fear for the safety of their families. The displaced women living 
in Swabi and Mardan districts said that relatives in Swat district 
contacted them by mobile phones to say that homes and livelihoods have 
been destroyed and sporadic fighting is continuing. Others spoke of 
confusion on the returns process and its implications, with only 
limited information provided at short notice. ``We hear that we should 
return to Swat. But there are no options for us except to go and sit on 
our destroyed house,'' said Zemit, 52, after she learned that her 
family home was bombed last week.
    Oxfam Country Director in Pakistan Neva Khan said, ``After the 
largest internal displacement crisis in Pakistan's history, everyone 
wants to see a return to normalcy including a secure and dignified 
return for all displaced people. We are encouraged that the Government 
has agreed to international guidelines but stress that the information 
campaign is also vital to the repatriation process.''
    The voluntary, safe, informed and dignified return of the IDPs is a 
paramount consideration for Oxfam International which, along with other 
members of the humanitarian community, is working with the government 
to help meet the needs of displaced people and particularly vulnerable 
women. Oxfam International is providing water, cash, cooking materials, 
latrines and hygiene kits for up to 360,000 men, women and children 
affected by fighting.
    Adhering to the three-phase plan of return set up by the 
government, buses and security vehicles have been taking families back 
to the NWFP since 13 July, first from displacement and spontaneous 
camps followed by those staying with host families. As the IDPs return 
to their villages, Oxfam International will shift its focus with local 
partners to help provide shelter in devastated areas. In particular, 
assisting people who have lost their crops, livestock, shops and other 
livelihoods.

Women's Stories
    Between 15th and 25th July, Oxfam International staff spoke to 
nearly 100 IDP women in focus groups discussions in Yar Hussain camp in 
Swabi district and in three host communities in Mardan district. The 
displaced women came from Upper Swat villages including Aliadab, Khalam 
and Khabal. Their stories include:

  <bullet> ZWAHARA (70) from Upper Swat

    ``I fear my husband and son are dead. I have no income and five 
daughters so I must get them married quickly.'' When Zwahara and her 
five daughters were given just 30 minutes notice to vacate their 
village, she had to leave her paralysed son behind with his father. 
Taken in by a distant relative living in Swabi district, her family and 
20 others of the extended family are sharing one toilet and water tap. 
The women are sleeping on the ground in the courtyard and desperately 
want to be allowed into one of the official camps for displaced 
families, where they believe conditions will be better. Because Zwahara 
has no male family member with her and no official ID card, the family 
have been turned away from the camps. Every member of the family 
suffers from diarrhoea and skin infections due to the heat and poor 
hygiene. Zwahara has learned from former neighbours that her house has 
been destroyed. No one has seen her husband or son for several weeks. 
The family do not plan to return to Swat.

  <bullet> RAHMATUN (22) from Upper Swat

    Rahmatun's husband returned to their village several weeks ago. He 
told her that there is shooting in their village and the curfew makes 
it too dangerous for him to go out to buy food. He plans to leave their 
village and travel south to join her in Mardan if they can find a place 
to live. Rahmatun said, ``The militants will behead us if we peek our 
heads outside of the door--we cannot send our girl children to school 
or anywhere with this being the case. They warned communities that if 
they fled during the fighting that would mean that they had sided with 
the Government.'' Rahmatun and her three small children were staying in 
Yar Husseim displacement camp in Swabi district.

  <bullet> SAHIB (80) from near Mingora in Swat district

    Eighty-year-old Sahib, her daughter and granddaughter walked for 
two days and two nights to escape the fighting in Swat. For the last 
three months they have been living in the empty home of a wealthy 
family in Swabi district, the relatives of a family friend in their 
home village. All the family suffer from diarrhoea and the skin rash 
scabies because of the intense heat and lack of mobility from living in 
purdah. Sahib said: ``I don't know what will happen to us if we go 
back. I want to stay here--there are too many problems in Swat.''

  <bullet> ZEMIT (50) from Upper Swat

    ``We hear that everyone should return to Swat. But there are no 
options for us except to go and sit on our destroyed house,'' said 
Zemit, 52, after she learned that her family home was destroyed by 
bombing last week. Living with 90 family members in a temporary home, 
Zemit says that she misses baking bread for her family at home and 
desperately wishes to return. But family members who remained in Swat 
tell her not to return because fresh hostilities coupled with a 
volatile curfew order makes it dangerous for them to get food and other 
necessities. A local administrator in Marden district invited Zemit and 
her large family to stay in his guesthouse, where they've lived for 
nearly three months and relied on the generosity of neighbours.

Notes to Editors
    1. Between 15th and 25th July, Oxfam International staff spoke to 
nearly 100 IDP women in focus groups discussions in Yar Hussain camp in 
Swabi district and in three host communities in Mardan district. The 
displaced women came from Upper Swat villages including Aliadab, Khalam 
and Khabal.
    2. The Government's national response plan outlined in May sketches 
a positive picture in many respects, with progressive references to 
safe, voluntary returns, community ownership, transparency and 
accountability, as well as the distinct needs of women and other 
vulnerable groups. This requires sustained support and commitment to be 
turned into a detailed reality. Recovery and rehabilitation plans must 
involve the active participation of affected. On 27 July 2009, the 
Government estimated that 700,000 people had returned to NWFP.
    3. The Pakistani army's operations against militants in NWFP 
beginning in late April triggered an exodus of over two million women, 
men and children especially after 2 May. The flight of civilians from 
the province's Malakand Division (mainly the districts of Swat, Dir, 
Malakand and Buner) represents the biggest conflict-induced 
displacement in the country's 62-year history.
    4. Oxfam International is a relief agency working in 70 countries 
to fight poverty and end suffering. Oxfam International has funded 
relief and development work in Pakistan since 1973 and two affiliates, 
Oxfam Great Britain and Oxfam Novib, are working in the country.

    Senator Casey. And just a quick summary that I'll read 
highlights of--to give those in the audience who may not sense 
the size of the human situation we're dealing with.
    Vignettes, after interviews by Oxfam of--in a kind of 
focus-group approach to this crisis, but even excerpts from the 
Vignettes tell the story. The story of a 70-year-old woman from 
Upper Swat--and I'm reading, ``When she and her five daughters 
were given just 30 minutes' notice to vacate their village, she 
had to leave her paralyzed son behind with his father.'' And 
then it goes on to talk about her house being destroyed.
    Another vignette, an 80-year-old woman in a Swat district, 
her daughter and granddaughter walked for 2 days and 2 nights 
to escape the fighting in the Swat.
    Another vignette, from a 50-year-old living with 90 family 
members in a temporary home.
    So, it goes on and on from there, and you--those of you in 
the audience who have studied this understand what we're 
talking about. This is a humanitarian crisis.
    Fortunately, America is usually at her best when it comes 
to reacting when we have a humanitarian crisis. And I think 
this is one of those examples. I'll talk about what some other 
countries are not doing, in a moment.
    The second reason why this is a crisis that the American 
people should be concerned about is this. The response to the 
crisis offers the Government of Pakistan an opportunity to 
consolidate the gains achieved so far this year in extending 
its writ of authority over territories where the government 
previously ruled in name only. All of us commend the leadership 
of President Zardari and Prime Minister Gilani in sending 
military forces to oust Taliban leaders who have gone too far. 
But, the sacrifices made by the army will be for naught if 
large numbers of IDPs turn against the government for lack of 
assistance during their time of need.
    It's incumbent upon the Government of Pakistan to 
reestablish security and provide basic services in the Swat 
Valley and surrounding areas to facilitate an orderly and 
voluntary return of the displaced.
    It is my hope that today's subcommittee hearing can shed 
light on three critical challenges the United States must 
address together with Pakistan and the international community.
    First, I've been disappointed, to say the least, by the 
lackluster response of the international community to date, 
especially that of the gulf states. Less than 50 percent--less 
than 50 percent--of the U.N. appeal has been met with pledges 
from the international community. And the United States is, far 
and away, the largest donor. We're not talking about military 
forces, here; just financial assistance. It's time our allies 
and friends step up to the plate and help out, here.
    Second, I'm concerned by recent news reports that the fact 
that the United States is providing so much of this assistance 
seems not to be understood by the Pakistani people. Following 
the 2005 earthquake in Kashmir, the United States helped 
organize an overwhelming response, earning a significant public 
diplomacy victory for hearts and minds of the Pakistani 
population. It's unfortunate that a similar scenario is not 
playing out today.
    And, of course, when we talk about a public diplomacy 
victory, we're not just talking about something to pat 
ourselves on the back as Americans. That's all--that's 
wonderful. But, we're talking about changing hearts and minds 
so that we can create better security situations, both in 
Pakistan and, therefore, in the best interests of--the national 
security interests of the United States.
    Finally, our third worry is that the lack of official 
coordination and resources in the crowded IDP camps is 
providing an opportunity for extremist groups to fill any 
vacuum. Indeed, I'm concerned by the reports that banned 
organizations have beaten the Pakistan Government to the punch, 
organizing these camps to provide delivery of needed medicine 
and food, and using the opportunity to spread a message of 
extremism and hate in the camps. I look forward to hearing from 
our witnesses on the first panel on the accuracy of this 
report, if you dispute those reports, and what, if anything, is 
being done to counter this disturbing development.
    We are pleased, today, to have an excellent group of 
witnesses to explain the dimensions of the crisis and how the 
United States and the international community can work to 
assist the Pakistani Government in addressing this urgent 
crisis.
    Our first panel will feature the Honorable Eric Schwartz, 
the Assistant Secretary of State for Population, Refugees, and 
Migration--we welcome him here, and all of his experience and 
commitment--and Jon Brause, the Deputy Assistant Administrator 
at the U.S. Agency for International Development, which we all 
know as USAID, responsible for overseeing much of the United 
States assistance to help ameliorate the Pakistani IDP crisis.
    Assistant Secretary Schwartz just returned from the region 
yesterday and can provide us a firsthand account of the 
situation on the ground in the Swat Valley and to what extent 
the small-scale returns we have seen in recent days heralds a 
more significant resettlement trend.
    Both men can explain what the United States is doing to 
respond to the immediate crisis and provide for future 
contingencies associated with the oncoming monsoon season and a 
potential military incursion into South Waziristan.
    I will save, for now, the introduction of our witnesses for 
the second panel, but I am eager to hear their testimony, as 
well, and their perspective.
    With that, let me take the opportunity that we'll probably 
have, I guess, in a few moments, to turn to our ranking member, 
Senator Risch, for his opening statement. And I want to welcome 
Senators Shaheen and Kaufman here today, and others who will be 
with us today to examine this challenge that we have.
    Maybe, at this time--until Senator Risch arrives--we'll go 
to opening statements.
    And, Assistant Secretary Schwartz, maybe you can start. I 
put a number of 8 minutes on you. We'll try to hold you to that 
as best we can. There'll be no--as you know, there'll be no 
bang of the gavel, necessarily, but if you can stick to 
something close to 8 minutes, that would help.
    Thank you.

   STATEMENT OF HON. ERIC SCHWARTZ, ASSISTANT SECRETARY FOR 
   POPULATION, REFUGEES AND MIGRATION, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Schwartz. Your letter invited me to speak for 10 
minutes, so if I come in under 10, I hope that's OK.
    Senator Casey. I just made a slight amendment. [Laughter.]
    Mr. Schwartz. Senator Casey and members of the panel, thank 
you for the opportunity to appear today on the humanitarian 
situation in Pakistan.
    I was in the job for less than 8 days when, with the strong 
endorsement of the Secretary of State and our Special 
Representative for Afghanistan and Pakistan, I went on this 
trip. I went because this is such a critically important issue 
confronting the United States.
    I spoke to Ambassador Holbrooke this morning and told him 
about the hearing. He was aware of the hearing. He asked me, 
personally, to convey to you all his deep appreciation for the 
very strong support of the Senate with respect to our approach 
on Pakistan and Afghanistan, and for your support for the 
supplemental critical assistance.
    I traveled last week to both Pakistan and Sri Lanka to 
assess the humanitarian situation in each country, and to 
consider how the United States can best sustain and enhance our 
efforts to provide relief and promote the conditions for 
sustainable recovery.
    For most of my visit in Pakistan, I was with Ambassador 
Holbrooke. And over the course of the trip, I visited the 
Jalozai camp for displaced persons, east of Peshawar, where 
some 87,000 of the displaced are located. Our delegation also 
met with President Zardari and Prime Minister Gilani and other 
senior officials. I met separately with Lt. Gen. Nadeem Ahmed, 
the head of a military special support group that is playing a 
key role in the assistance effort. I saw other Pakistani 
officials involved in relief, senior representatives of the 
U.N. High Commissioner for Refugees, the International 
Committee of the Red Cross, and other international 
organizations, as well as representatives of international and 
local aid providers that are partnering with the Government of 
Pakistan to manage this humanitarian response.
    I think it's very important that I first acknowledge those 
on the ground who have responded so generously and effectively 
to this huge challenge, including Pakistani families, who have 
hosted most of the more than 2 million internally displaced 
persons. It's important to realize that most of the displaced 
are not in camps; they're being hosted by families.
    On the other side are extremists who bomb mosques and 
markets, destroy schools, murder teachers because they allow 
girls in the classroom, and kill aid workers. This month, at 
the Kacha Gari camp for displaced persons, gunmen killed a 
Pakistani employee of UNHCR. His name was Zill-e-Usman. They 
also killed a Mr. Allauddin, a guard employed by the Office of 
the Commissioner for Afghan Refugees, an agency of the Pakistan 
Government.
    Mr. Usman, of UNHCR, had worked for that organization for 
25 years, and left behind a wife and four children. He was one 
of three UNHCR employees killed in Pakistan this year, and his 
death and the plight of his family is emblematic of the 
suffering that the Taliban has visited on so many in Pakistan.
    Let me now turn to a background of the crisis, describe and 
assess the current situation, including our response, and 
present my view of the near-term challenges.
    As you know, in response to the widespread abuses and 
lawlessness of the Pakistani Taliban, the government launched a 
military campaign in late April to break the Taliban's hold on 
Buner and, soon after, Swat, in the North West Frontier 
Province.
    By June, displacement reached a plateau of more than 2 
million people, as you said, including about half a million 
people who had been displaced in earlier conflict. About 15 
percent were living in official camps, but the overwhelming 
majority, 85 percent, was living in host communities. People in 
both camps and host communities endured, and continue to 
experience, crowded conditions, lack of privacy, and often poor 
sanitation and shortages of safe drinking water and other 
supplies, but there have been no major outbreaks of disease or 
instances of widespread hunger among the many displaced persons 
living within and outside the camps.
    Now, the crisis has entered a new phase, in two respects: 
Return of the recently displaced and the new displacement from 
South Waziristan, in the Federally Administered Tribal Areas.
    On the first of those issues, as the military retook 
territory from militants, people began returning to their home 
districts in large numbers. On July 13, the authorities 
launched an operation to provide transport, security, and, with 
the assistance of humanitarian organizations, essential 
supplies to returnees. Although these are estimates, which are 
in flux and, in any event, have a margin of uncertainty, the 
government reports that, in all, well over 700,000 displaced 
persons have returned home to the agencies of the Federally 
Administered Tribal Areas and to the North West Frontier 
Province.
    Uncertainty about security, basic services, and prospects 
for restoring their incomes are deterring some people from 
returning home, and some individual family members are making 
trips home to gather information on whether to bring their 
families back.
    On July 11, Pakistani and U.N. officials agreed on a policy 
framework for returns, stipulating that returns should be 
voluntary, informed, dignified, safe, and sustainable. I have 
discussed with officials reports that some displaced persons 
may have felt undue pressures to return. This issue will remain 
an important part of our bilateral dialogue with the Government 
of Pakistan. However, it is encouraging that Pakistani 
authorities have continued to emphasize their commitment to 
this principle of voluntariness, and have made clear their 
willingness to take seriously and investigate concerns about 
the repatriation process.
    On the second issue: South Waziristan; sporadic fighting on 
the ground and air attacks have displaced about 60,000 people 
or more, and this number will increase with the expected 
offensive against the Tehrik-i-Taliban Pakistan group.
    So, what are the conclusions from this analysis?
    First, the humanitarian response has been inadequate. The 
U.N. appeal of $543 million is only 38 percent funded, and 
other governments must come forward to help. This was one of 
the largest rapid displacements of people in recent memory. 
And, while Pakistani authorities and partners responded 
effectively and returns have begun, there are still 1\1/2\ 
million who have not returned.
    I should note that the United States has very much met our 
responsibility, leading the way in the international response, 
with more than $320 million committed since May of this year. 
The Bureau of Population, Refugees and Migration that I lead at 
the State Department has already provided about $60 million for 
this response to support key international partners, and we're 
prepared to do more this fiscal year.
    Second, the principal immediate challenge is to create 
conditions to support voluntary and durable returns. This 
includes reestablishing security, utilities, civil 
administration, providing food, restoring livelihoods. We're 
supporting international organizations that are already 
focusing on this return and rehabilitation issue. And Jon 
Brause, my colleague, will tell you more about USAID efforts in 
this area.
    I see I have 14 seconds remaining; I've got about 45 
seconds more of prose. So, if you will indulge me.
    Third----
    Senator Casey. You have----
    [Laughter.]
    Senator Casey [continuing]. My indulgence.
    Mr. Schwartz. Third, relief organizations must be prepared 
to continue to meet the needs of those displaced persons who 
may not be able to return home promptly, especially as the 
monsoon season is beginning.
    Fourth, the government and the humanitarian community must 
prepare for displacement from South Waziristan, and possibly 
neighboring areas. The displacement may reach 150,000 people, 
or more, once full-scale military operations begin.
    Finally, the longer term task of rebuilding infrastructure 
must begin now. The World Bank and the Asian Development Bank 
are preparing an assessment of damages that should be available 
at the beginning of September, and Pakistan will need 
substantial support from donors to rebuild.
    In closing, let me note that the Taliban's atrocities have 
turned many Pakistani citizens against them. A public opinion 
poll conducted in May revealed that 81 percent of those 
surveyed considered the Taliban a critical threat to the vital 
interests of Pakistan, compared with only 34 percent in 2007. 
By sustaining and strengthening humanitarian assistance to its 
displaced population, by ensuring return, in safety and in 
dignity, and promoting the conditions for sustainable recovery 
and development, the Government of Pakistan can offer the 
prospect of a brighter future for millions of its citizens and 
further diminish support for misguided and dangerous extremism.
    We stand ready to continue to assist in this effort, and I 
welcome your questions.
    Thank you.
    [The prepared statement of Mr. Schwartz follows:]

 Prepared Statement of Eric P. Schwartz, Assistant Secretary of State 
     for Population, Refugees, and Migration, Department of State, 
                             Washington, DC

    Mr. Chairman, distinguished members of the committee, last week, I 
visited Pakistan with Ambassador Richard Holbrooke to assess the 
humanitarian crisis and the response of the Pakistani Government and 
international community. I am grateful for this opportunity to share 
with you my perspectives on the humanitarian situation and to consider 
what more we and others can do to ameliorate the suffering of those 
displaced from their homes, as well as to create conditions for their 
return and the sustainable recovery of their communities.
    Let me first acknowledge those on the ground who have responded so 
generously and effectively to this huge humanitarian challenge. Most of 
the more than 2 million internally displaced persons found refuge in 
homes of thousands of Pakistani families. Humanitarian workers from 
Pakistan and around the world are working tirelessly under difficult, 
and often dangerous, conditions to save lives. They have our admiration 
and our gratitude.
    On the other side are extremists who bomb mosques and markets, 
destroy schools, murder teachers because they allow girls in 
classrooms, and kill aid workers. When extremists bombed the Pearl 
Continental Hotel in Peshawar in June, UNICEF Pakistan Chief of 
Education, Peseveranda So; U.N. High Commissioner for Refugees (UNHCR) 
employee, Aleksandar Vorkapic; and three members of a U.N. Population 
Fund implementation team were among the 18 people killed; many other 
U.N. humanitarian workers were wounded, at least one seriously. This 
month at the Kacha Gari camp for displaced persons, gunmen killed a 
Pakistani employee of UNHCR, Mr. Zill-e-Usman, and Mr. Allauddin, a 
guard employed by the Office of the Commissioner for Afghan Refugees, 
an agency of the Pakistani Government. Another UNHCR staff member and 
another guard were wounded. Mr. Usman had worked for UNCHR for 25 
years. He left behind a wife and four children. He was one of three 
UNHCR employees killed in Pakistan this year.
    Allow me now to offer background on the humanitarian crisis, 
describe and assess the current situation--including the U.S. and 
international response--and present my view of the near-term 
challenges.

                               BACKGROUND

    In response to the widespread abuses and lawlessness of the 
Pakistani Taliban, the government launched a military campaign in late 
April to break the Taliban's hold on Buner, and soon thereafter, Swat 
in the North West Frontier province (NWFP). Within a few weeks, the 
fighting caused about 1\1/2\ million people to flee. They joined more 
than half a million others who had fled fighting in the summer and fall 
of 2008 between the military and Pakistani Taliban in Bajaur and 
Mohmand Agencies in the Federally Administered Tribal Areas (FATA) and 
Lower Dir. By mid-June, more than 2 million displaced persons, or 
approximately 300,000 families, were living within an arc of 100 miles 
north and east of Peshawar.
    In June, the displacement reached a plateau of more than 2 million 
people. About 15 percent were living in official camps; 85 percent were 
living in host communities, with families in rental housing or public 
buildings. Displaced persons have used nearly 4,000 schools as 
shelters.
    People in both camps and host communities endured and continue to 
experience crowded conditions, lack of privacy, and often, poor 
sanitation and shortages of safe drinking water. Supplies of essential 
medicines and numbers of medical personnel, particularly female medical 
personnel, are insufficient. The main health problems are 
gastrointestinal disorders, respiratory infections, and skin diseases. 
Camp management, which includes the NWFP government, UNHCR, and the 
Pakistani Red Crescent Society among others, keeps the camps in good 
order. While camps tend to be better served than host communities, 
there have been no major outbreaks of disease or instances of 
widespread hunger among the many displaced persons living within or 
outside the camps.

                    HUMANITARIAN RESPONSE STRUCTURE

    The Emergency Response Unit (ERU) of the NWFP government is 
responsible for overall coordination of relief activities. At the 
federal level, a Special Support Group (SSG), under the leadership of 
Lt. Gen. Nadeem Ahmed, assists the NWFP government and coordinates 
operationally with international organizations and NGOs.
    The U.N. Office for the Coordination of Humanitarian Affairs (OCHA) 
ensures coordination and information-sharing among the various service 
providers through the mechanism of the U.N. cluster system. This system 
organizes U.N. agencies, NGOs, and government agencies into thematic 
groups (camp coordination and management; emergency shelter and nonfood 
items; water, sanitation and hygiene; food security; health; 
protection; education; logistics; agriculture; and early recovery) to 
address needs in particular sectors more coherently and effectively. A 
representative from the appropriate government department and from a 
U.N. agency cochair each cluster. The World Food Programme (WFP), which 
leads the logistics cluster for the U.N., manages most of the 36 
humanitarian hubs to deliver supplies. U.N. agencies are operating from 
Peshawar with a reduced presence in the aftermath of the bombing of the 
Pearl Continental Hotel on June 9.

                            AFGHAN REFUGEES

    The current humanitarian crisis in the NWFP is not the only 
challenge of displacement in the region. Some 1.7 million registered 
Afghan refugees live in Pakistan, in addition to up to 500,000 
unregistered Afghans. Most of them have lived in Pakistan for more than 
20 years; many were born there. Like the displaced Pakistanis in the 
NWFP, they are principally ethnic Pashtuns, although they live in 
separate camps or communities throughout NWFP and in eastern 
Baluchistan.
    UNHCR protects and assists Afghan refugees in Pakistan in 
cooperation with the Pakistani Government and with NGOs funded directly 
by donors, including the United States. One effect of the fighting has 
been the temporary suspension of UNHCR's program of voluntary 
repatriation from Peshawar because of the security risks. While more 
than 275,000 Afghans were repatriated from Pakistan in 2008, the number 
so far this year has been only 44,000. UNHCR's Afghanistan repatriation 
and reintegration program is still able to receive those willing to 
return, but we remain concerned that recent events in Pakistan have 
disrupted returns at a key point in Afghanistan's own reconstruction. 
We look forward to seeing the resumption of the repatriation program in 
NWFP when security permits.

                               NEW PHASE

    Pakistan's internal displacement crisis has now entered a new phase 
in two respects. First, as the military retakes territory from 
militants, people are returning to their home districts in large 
numbers. As is typical in cases of large and ongoing population 
movements, estimates have a margin of uncertainty. The government 
reports that, in all, well over 700,000 displaced persons have returned 
home to the FATA Agencies and NWFP. Also according to the government, 
some 100,000 people have returned to Bajaur Agency in the FATA; limited 
areas within the region remain unsafe and are still producing 
displacement. More than 300,000 people--about two-thirds of the 
district's population--have returned to Buner.
    Earlier this month, the government announced the completion of its 
offensive in Swat. On July 13, Pakistani authorities launched an 
operation to provide transport, security and, with the assistance of 
humanitarian organizations, essential supplies to returnees. The 
operation began with camp populations and then expanded to assist 
displaced people in host communities. Two camps in Mardan district have 
closed as their inhabitants returned home. At least 300,000 people have 
returned to the more secure, less damaged areas of Lower Swat. The vast 
majority of returnees have traveled in private vehicles rather than in 
government-provided transport. The government has stated that it plans 
to complete its operation of assisted returns by the third week in 
August.
    U.S. Government personnel have conducted assessments in Buner 
district and report light to moderate damage, although police stations 
and some schools have suffered severe damage. Electricity and 
telecommunications are largely restored, but the water supply 
infrastructure requires repair.
    Early reports indicate that damage to infrastructure in Swat is 
more severe than in Buner, although varied by location. USAID teams 
that entered Swat on July 16 observed little damage south of Mingora, 
but heavier destruction in the city itself, home to more than 200,000 
people, particularly to buildings targeted or occupied by the Taliban. 
Areas north of Mingora are inaccessible and insecure.
    Uncertainty about security, basic services, and prospects for 
restoring their incomes are deterring some people from returning home. 
Humanitarian agencies report that some individual family members are 
making trips to gather information for a decision on whether to bring 
their families back. This is typical in such situations--we call them 
``go and see visits.'' Another factor slowing returns is that many 
families are waiting to receive their $300 debit card from the 
government. As of July 25, the Pakistani Government had distributed 
about 220,000 debit cards to eligible families. The Pakistani 
Government is allocating $100 million to fund this program. The 
military has committed to staying in the Malakand division, which 
includes Swat, Buner, and Lower Dir, for 12 months to provide security.
    On July 11, the Provincial Relief Commissioner, on behalf of the 
Chief Secretary of the NWFP, and a representative of UNHCR, on behalf 
of the humanitarian community, signed an official statement that sets 
out a policy framework for returns. The core of the return policy 
framework is that the return of displaced persons should be voluntary, 
informed, dignified, safe and sustainable, which we strongly endorse. 
During my visit, government officials told me they are committed to act 
in accordance with these principles. I discussed with officials reports 
that some displaced persons may have felt undue pressure to return (for 
example, as a result of the reduction or elimination of services in 
some camps), and this issue will remain an important part of our 
bilateral dialogue. However, it is encouraging that the Pakistani 
authorities have made clear their willingness to take seriously and 
investigate concerns about the repatriation process and other issues 
affecting displaced persons.
    A second development is the increase in displacement from South 
Waziristan and neighboring areas of the FATA. Sporadic fighting on the 
ground and air attacks in South Waziristan, Kurram, Orakzai, and Bannu 
have displaced about 60,000 people, and this number will increase with 
the expected main offensive against the Tehrik-i-Taliban Pakistan (TTP) 
group headed by Baitullah Mehsud. Although international humanitarian 
organizations are prepositioning supplies in Bhakkar in nearby Punjab, 
they have no direct access to Tank and D.I. Khan, the areas receiving 
most of the displaced people. Pakistani authorities are responsible for 
registering them and providing assistance. The authorities do not 
intend to establish camps, and we believe that the displaced have no 
interest in going to camps. They are staying with host families, in 
second homes, in rented accommodations, or in schools.

                               ASSESSMENT

    Nearly 3 months into this humanitarian crisis, one can draw some 
conclusions about the response and the situation more broadly. First, 
the initial conditions presented huge challenges: A large and rapidly 
developing displacement in an area of heavy fighting between the 
Pakistani military and well-armed groups, as well as several deadly 
terrorist attacks beyond the area of military operations. Many of the 
affected areas, while rural, were densely populated. The outflow of 
people represented one of the heaviest displacements in recent history.
    Second, Pakistani authorities, assisted by humanitarian 
organizations, responded rapidly and effectively to the emerging 
crisis. The NWFP government established an Emergency Response Unit 
(ERU) and declared that it would devote its entire development budget 
for 2009 for humanitarian relief. The federal government established 
the Special Support Group (SSG) and appointed Lt. Gen. Nadeem Ahmad, 
who managed the relief effort for the 2005 earthquake, to head the 
operations of the group and oversee on-the-ground coordination between 
the government and international humanitarian organizations.
    At the request of the Pakistani Government, the U.N. issued an 
emergency appeal for $542 million some 3 weeks after the Swat offensive 
began. International agencies such as UNHCR, the World Food Programme 
(WFP), UNICEF, the World Health Organization (WHO), the International 
Committee of the Red Cross (ICRC), and Pakistani and international 
NGOs, set up camps, activated the humanitarian cluster system, helped 
the Pakistani Government register displaced people, and distributed 
food and emergency supplies. It was helpful that several of these 
organizations already had a presence and emergency response capability 
in the area because of their participation in the relief effort for the 
Bajaur displacement in 2008, the earthquake in 2005, and their 
continuing support for Afghan refugees.
    Third, in spite of massive displacement in one of the poorer areas 
of Pakistan, the humanitarian response has been effective in preventing 
dire outcomes, while providing shelter, protection, and critical 
medical attention to hundreds of thousands of people. There has been 
neither widespread hunger nor outbreak of epidemic disease. This is due 
in great part to the hospitality and generosity of the many ordinary 
Pakistani citizens who took in not only relatives but often complete 
strangers and shared what they had. But it is also due to a rapid 
response by humanitarian organizations--both international and 
Pakistani.
    Fourth, despite its success, the humanitarian response lacks 
sufficient funding. As of July 27, the U.N. appeal of $542 million was 
only 38-percent funded, at $203 million. Donors have also contributed 
$104 million to the Government of Pakistan and to organizations outside 
of the U.N. appeal. To date, the U.S. Government has provided more than 
half of the total humanitarian assistance to Pakistan. Although we can 
take satisfaction in our support for the Pakistani people, other 
governments need to do more.
    Fifth, the Taliban's atrocities have turned many Pakistani citizens 
against them. A public opinion poll \1\ conducted in May revealed that 
81 percent of those surveyed considered the Taliban a critical threat 
to the vital interests of Pakistan, compared with 34 percent in 
September 2007. Asked whom they supported in the Swat conflict, 70 
percent preferred the government compared to 5 percent for the Taliban. 
Where fighting raged in the NWFP, nearly every day we read in the 
Pakistani press of villagers and tribal militias turning against 
Taliban militants. In May, the government convened an All-Parties 
Conference that resulted in a declaration supporting military action 
against insurgents and extremists and condemning violent extremism and 
challenges to the state's authority in any part of Pakistan.
---------------------------------------------------------------------------
    \1\ Ramsay, et al., ``Pakistani Public Opinion on the Swat 
Conflict, Afghanistan and the United States,'' July 1, 2009, http://
www.worldpublicopinion.org/, a project managed by the Program on 
International Policy Attitudes at the University of Maryland.
---------------------------------------------------------------------------
    Further, following press reports in May that charities with links 
to extremist groups, such as Falah-e-Insaniat Foundation (FIF), were 
engaged in some IDP camps in NWFP, we raised this issue with the 
Government of Pakistan, which agreed to address it. We understand that 
in general terms, the GOP, through its security presence, is monitoring 
this kind of activity in camps and other IDP settings, and that due to 
government pressure specifically, FIF was made to restrict its 
activities with IDPs in the camps. The Pakistani Government's response 
to the crisis, including its close work with humanitarian 
organizations, has been an important factor in its ability to maintain 
public support for a strong response to the Taliban insurgency.

             HUMANITARIAN ASSISTANCE FROM THE UNITED STATES

    In this crisis, the administration, its agencies, and Congress have 
acted in concert to generate the resources and deliver them effectively 
to the people of Pakistan. The substantial U.S. response demonstrates 
our solidarity with the Pakistani people and support for the Pakistani 
Government in these trying times. Early on, USAID deployed a DART team 
to assess conditions and recommend where to direct emergency 
assistance. By the time that the U.N. had issued its appeal in May, 
Secretary Clinton had developed and announced a $110 million U.S. 
assistance package, nearly all of which was disbursed within a few 
weeks. The Secretary, Ambassador Holbrooke, and our Embassies around 
the world urged other governments to meet the humanitarian challenge 
with additional resources. USAID, USDA, DOD, and my Bureau at the State 
Department have all mobilized to deliver vital assistance to our 
partners on the ground on a timely basis--shelter, protection, food, 
medical supplies and services, electric generators, and transport and 
logistics support.
    Following Ambassador Holbrooke's visit to Pakistan in early June, 
the President requested an additional $200 million in emergency 
assistance, and Congress passed a supplemental appropriation shortly 
thereafter. Those funds are now beginning to flow. I thank you for 
appropriating these additional funds. Congressional support has been 
critical to our assistance efforts. We applaud the Senate's passage by 
unanimous consent of the Enhanced Partnership with Pakistan Act (S. 
962), which authorizes $1.5 billion per year in nonmilitary assistance 
for 5 years. Final passage of this legislation will be a powerful 
demonstration of our long-term commitment to helping the Pakistani 
people and reinforce our desire for a long-term partnership based on 
common interests.
    Since May, the United States has pledged more than $320 million in 
humanitarian assistance to Pakistan to meet the needs of conflict-
affected people. Last week in Islamabad, Ambassador Holbrooke outlined 
how we will spend $165 million of funds available (most from the FY 
2009 supplemental appropriation) to meet ongoing needs of displaced 
persons in camps and host communities, and also to address needs as 
people return to build their homes and communities.
    The bureau I head, Population, Refugees, and Migration (PRM), has 
committed nearly $60 million for humanitarian relief efforts this 
fiscal year, $25 million of which has already been provided to 
humanitarian organizations and $35 million of which Ambassador 
Holbrooke announced last week in Pakistan. We are currently in the 
process of providing these new funds to our principal partners in 
Pakistan--UNHCR and the ICRC. Within the U.N. system for this 
emergency, UNHCR has lead responsibility for protection, camp 
coordination and management, emergency shelter, and provision of 
nonfood items (which include blankets, cooking sets, mosquito nets, and 
jerry cans) to people in camps and host communities.
    Protecting vulnerable populations is a global priority for PRM. In 
Pakistan, UNHCR's protection function includes assisting the government 
to register displaced people and helping people with special needs, 
particularly the elderly, women, and children. UNHCR has set up child 
protection committees in camps to protect children from violence and 
abuse, and has reunited separated children with their parents.
    Since the Bajaur crisis in August 2008, ICRC has provided 
assistance in insecure areas where most other providers, including U.N. 
agencies, have been unable to operate. ICRC was the first humanitarian 
organization to enter Swat in areas where fighting was still underway. 
In cooperation with its national partner, the Pakistan Red Crescent 
Society (PRCS), ICRC provides medical assistance, food, and other 
emergency assistance to people in camps, host communities and, where 
possible, people trapped by fighting. They also administer several 
camps, trace missing family members, and reunite families. The 
Department of State is proud to support UNHCR and ICRC on behalf of the 
American people.

                             LOOKING AHEAD

    Let me close by identifying the main challenges for the 
humanitarian effort over the next few months.
    First, the humanitarian response is underfunded; other donor 
governments must do more to help. While about 700,000 people have 
returned home, there are still approximately 1.5 million displaced 
people. And we should not forget that Pakistan is still generously 
hosting 1.7 million registered Afghan refugees. Even with substantial 
returns of displaced persons, current operations require additional 
resources, and donors should support early recovery in areas of return. 
The long-term reconstruction needs are greater and will require 
coordinated and sustained engagement from international donors.
    Second, the new and principal challenge is to create conditions to 
support voluntary and durable returns. These conditions include 
reestablishing security, utilities, and civil administration, providing 
food, and restoring livelihoods. The World Food Programme (WFP) 
estimates that many returnees will need food assistance for 6 to 12 
months to compensate for lost crops and income. While many people will 
continue to rely on food and other consumable relief supplies, 
resources will have to shift progressively to support interventions 
that restore normal daily life. In this respect, UNHCR is assisting 
Pakistani authorities by funding transportation for voluntary returns 
and supplying nonfood items for returnees. It plans to provide 
protection and advocacy through an information and referral service for 
returnees.
    The ICRC is helping 217,000 people in 31,000 households restore 
their livelihoods by distributing seeds and tools for the next planting 
season. USAID is providing assistance for debris removal, medical and 
agricultural programs, repair of infrastructure, and cash-for-work 
programs. These efforts at early recovery are absolutely essential, and 
you will hear more on this from my colleague, Jon Brause.
    Third, relief organizations must be prepared to meet the needs of 
those displaced persons who may not be able to return home promptly--
especially as the monsoon season is beginning. Humanitarian 
organizations estimate that perhaps 30 to 50 percent of those displaced 
will not be able to return home before the onset of winter, and will 
need continuing assistance.
    Fourth, the government and the humanitarian community must prepare 
for displacement from South Waziristan and possibly neighboring areas. 
This displacement may reach 150,000 people or more once full-scale 
military operations get underway. The relief effort will require a 
different supply chain from that established for NWFP. Humanitarian 
organizations have begun to preposition supplies in Punjab, but the 
military has not authorized the setup of delivery points closer to the 
areas of displacement. We will work with the Pakistani authorities and 
international assistance providers to promote ease of assistance to 
these populations.
    Finally, the longer term task of rebuilding infrastructure must 
begin now. The World Bank and Asian Development Bank are preparing an 
assessment of damages that should be available at the beginning of 
September. Pakistan will need substantial support from donors to 
rebuild. Timely reconstruction is critical to ensuring our 
humanitarian, development, and security objectives.
    It is clear that the people and Government of Pakistan and their 
partners around the world have accomplished much. But much remains to 
be done. The administration is committed to sustaining and 
strengthening our efforts to support recovery and development in 
Pakistan.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Casey. Thank you very much.
    Mr. Brause.

STATEMENT OF JON BRAUSE, DEPUTY ASSISTANT ADMINISTRATOR, BUREAU 
  FOR DEMOCRACY, CONFLICT, AND HUMANITARIAN ASSISTANCE, U.S. 
      AGENCY FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Mr. Brause. Good morning, Mr. Chairman and members of the 
committee. Thank you for the opportunity to update you on the 
internal displacement in Pakistan and on the U.S. Government's 
humanitarian assistance efforts.
    With your permission, I'd like to submit written testimony 
for the record and provide a brief overview of our assistance 
efforts in my oral statement.
    Senator Casey. Both of your statements will be incorporated 
into the record in their--in the full capacity.
    Mr. Brause. Thank you very much.
    We appreciate the continued support of Congress and the 
supplemental funding recently enacted for both disaster 
assistance and food aid. Both have permitted us to aggressively 
respond to the current crisis in Pakistan.
    Operating in support of the Government of Pakistan, the 
whole of the United States Government is working to ensure 
assistance is provided to Pakistanis in need. In particular, 
USAID is working in close coordination with Assistant Secretary 
Schwartz and his staff in responding to this complex and 
rapidly evolving crisis, which requires both flexible and 
creative solutions. Since August 2008, the United States 
Government has provided more than $171 million, of more than 
$320 million pledged, for humanitarian assistance to conflict-
affected individuals in Pakistan.
    Dollar figures, however, do not convey the true breadth of 
U.S. humanitarian assistance. Mr. Chairman, as you pointed out, 
the United States is usually at our best when it comes to 
humanitarian response. With the combined resources of agencies, 
the U.S. Government is uniquely prepared to respond to 
international crises on the ground--with on-the-ground 
expertise and resources, and that is true today in Pakistan.
    Let me give you some examples. When the Government of 
Pakistan requested large tents, generators, and meals ready to 
eat, the United States Department of Defense responded by 
immediately airlifting air-conditioned tents, generators, and 
Halal meals to Islamabad. The U.S. Department of Agriculture, 
through its Food for Progress Program, is providing over 50,000 
metric tons of U.S. wheat and 6,800 tons of vegetable oil, 
totaling $43.5 million in assistance to help feed the displaced 
and returnees through the end of the year. They shifted a 
program, that wasn't originally focused on the displaced, and 
transferred the commodities to meet the sudden onset needs that 
took place in May.
    And as you've heard from Assistant Secretary Schwartz, the 
Bureau of Population, Refugees, and Migration has already 
provided $24.6 million in assistance through UNHCR and ICRC, 
and will be provided an additional $35 million.
    PRM's partners are critical to the success of the 
humanitarian assistance operations in Pakistan. Within the U.N. 
coordination system in Pakistan, UNHCR has the lead 
responsibility of protection, camp coordination and management, 
emergency shelter, and the provision of relief supplies within 
the camps. ICRC has provided assistance in insecure areas, 
where most other providers, including U.N. agencies, have been 
unable to operate. In cooperation with its national partner, 
the Pakistan Red Crescent Society, ICRC provides medical 
assistance, food, and other emergency relief assistance to 
people in camps, host communities, and, where possible, people 
trapped by conflict. They also administer several camps, trace 
missing family members, and reunite families, when possible.
    With a unique range of expertise, assistance mechanisms, 
and partner organizations, USAID had provided a broad range of 
assistance, primarily from three offices: The Office of Foreign 
Disaster Assistance, the Office of Food for Peace, and the 
Office of Transition Initiatives. To date, these offices have 
provided approximately $122 million in assistance.
    OTI's programs support the Government of Pakistan's efforts 
to strengthen civil society and improve basic services, helping 
the government build stronger relationships with communities.
    As the crisis escalated in May, USAID, with the endorsement 
of Ambassador Holbrooke, deployed a Disaster Assistance 
Response Team to Pakistan. The team was composed of USAID 
personnel with over 15 years of Pakistan and regional disaster 
response experience in food aid, shelter, and displacement. The 
DART was charged with managing U.S. Government assistance and 
coordinating our efforts with those of the Pakistani Government 
and the international community.
    Our disaster response expertise is embodied in staff like 
Bill Berger, OFDA's principal regional adviser for South Asia, 
who has just arrived from Islamabad and is here with us today.
    Bill was our DART team leader in the aftermath of the 2005 
Pakistan earthquake, and he has been highly involved in our 
response to the current crisis. As in 2005, USAID continues to 
work closely with General Nadeen, who is the head of Pakistan's 
Special Support Group and someone who Bill Berger has a very 
close relationship.
    Upon arrival, the DART found the typical U.N.-led 
coordination mechanisms were not operational. The DART stepped 
in to fill the void--calling coordination meetings, discussing 
priorities with the Government of Pakistan, and working to 
ensure needs were being met. To emphasize the need for U.N.-led 
efforts, USAID provided funding for coordination and held 
discussions with the U.N. Under Secretary General for 
Humanitarian Affairs and Emergency Relief Coordinator, John 
Holmes. Shortly after our discussions, the United Nations 
appointed Mr. Martin Mogwanja as the U.N. humanitarian 
coordinator for Pakistan, and he is now managing the 
international coordination efforts for the United Nations.
    With the strong support of Anne Patterson--Ambassador Anne 
Patterson--and the USAID mission director, Bob Wilson, the DART 
spent its first days on the ground assessing the humanitarian 
situation and partner capacities. Building on an existing OFDA 
program to detect signs of an epidemic at an early stage in 
order to prevent disease outbreaks, the DART increased support 
to the World Health Organization's Disease and Early Warning 
System. On July 3, U.N. officials reported that the system has 
identified and controlled more than 30 potential communicable 
disease outbreaks.
    When food availability was identified as a continuing 
issue, the DART food officer quickly called forward 4,000 
metric tons of Title II food aid by diverting shipments already 
on the water and transferring commodities from prepositioned 
stocks in Djibouti. Through the World Food Programme, this food 
was distributed to IDP camps and hubs within the week of 
arrival at port.
    In addition, the Office of Foreign Disaster Assistance 
provided funds from the local and regional--pardon me--for the 
local and regional procurement of food aid, which is a 
critically needed complement to our traditional food aid. With 
our funding, WFP was able to locally purchase and distribute 
over 55,000 metric tons of wheat and 3,300 metric tons of 
beans. This quickly addressed acute food needs, and it had the 
added benefit of stimulating the local economy, keeping farmers 
employed.
    Field assessments, when possible, help identify any gaps in 
assistance and ensure USAID programs are meeting emerging 
humanitarian needs. Though fluid security conditions forced the 
cancellation of many scheduled trips, the DART was able to make 
over 17 assessment trips to conflict-affected areas.
    After 2 months on the ground, and despite enormous security 
constraints, the DART had successfully provided assistance 
through 6 U.N. agencies and 12 nongovernmental organizations, 
including Mercy Corps, International Medical Corps, and Save 
The Children.
    As displaced families return home, pressures on the camps 
and host families are likely to diminish. According to Pakistan 
Government officials, up to 700,000 displaced individuals have 
returned to their homes in recent weeks. As we look ahead, we 
must be mindful of the security situation for returnees and the 
possible uptick in displacements from Waziristan.
    The security situation is the No. 1 challenge to 
humanitarian operations. We continuously consult with our 
partners, and we remain willing to support additional security 
training, increased operational security analysis, and efforts 
to improve humanitarian security coordination. We are helping 
the Government of Pakistan establish a presence in conflict-
affected areas and restore essential services, and we are 
working to identify and repair roads, educational institutions, 
and hospitals damaged during the conflict.
    Many of the displaced lost their harvest and may not be 
able to plant for the coming year, so the Office of Food for 
Peace is providing an additional $20 million of U.S. food aid 
in August to support returnees, as well as those who remain 
displaced. The Office of Foreign Disaster Assistance will also 
continue to support the provision of farming tools and seeds, 
as well as hygiene kits and household toolkits.
    By creating jobs, rebuilding infrastructure, and providing 
other necessary assistance, USAID programs will help foster 
sustainable returns.
    To ensure the ability of our--to respond rapidly to 
changing circumstances, USAID has supported prepositioned 
relief supplies, including food, household toolkits, emergency 
kitchen sets, water containers, et cetera. USAID has also 
provided support for WFP logistics hub and warehouse in Punjab 
province to ensure that our partners are ready to respond to 
potential displacement from Waziristan.
    Our previous experience in Pakistan, and the strong 
relationships we have built, enhance our ability to provide 
assistance in support of the Pakistan Government. We are making 
a positive impact in Pakistan, and our programs are an 
effective and visible demonstration of the goodwill of the 
American people.
    Thank you, and I'll be happy to answer any questions you 
might have.
    [The prepared statement of Mr. Brause follows:]

Prepared Statement of Jon C. Brause, Deputy Assistant Administrator for 
 Democracy, Conflict and Humanitarian Assistance, United States Agency 
             for International Development, Washington, DC

    Good morning, Mr. Chairman and members of the committee. Thank you 
for the opportunity to update you on Pakistan's internally displaced 
persons and the humanitarian assistance efforts of the United States. 
Operating in support of the Government of Pakistan, the whole of the 
United States Government--from the State Department and Department of 
Defense, to USAID and the Department of Agriculture--is working to 
ensure assistance is provided to Pakistanis in need.
    Assistant Secretary Schwartz and his staff are dedicated to 
providing assistance to refugees, conflict victims, and stateless 
people worldwide. Throughout the recent crisis in Pakistan, USAID has 
worked in close coordination with Assistant Secretary Schwartz's bureau 
to ensure the needs of the displaced are being met in a complex and 
rapidly evolving environment.
    We appreciate the continued support of the Congress and the 
supplemental funding recently enacted for both humanitarian assistance 
and Public Law 480 Title II food aid, which has permitted us to 
aggressively respond to this crisis.
    USAID is the lead agency within the U.S. Government for providing 
assistance to, and promoting the protection of, internally displaced 
persons (IDPs) internationally. With its strong operational presence in 
the field and decades of experience responding to a broad range of 
complex emergencies, natural disasters, and post-conflict situations 
throughout the world, USAID is at the forefront of the humanitarian 
community's effort to place greater emphasis on protection during the 
immediate humanitarian response to population displacement, as well as 
during the longer term transition toward development and stability.
    Since USAID adopted an agencywide policy for internally displaced 
persons in October 2004, we have worked with other U.S. Government 
agencies, nongovernmental organizations (NGOs), the international 
community, and the United Nations to implement and strengthen 
protection activities and mobilize funding for vulnerable populations.
    A broad, integrated approach is required to reduce the human costs 
of population displacement and to foster sustainable long-term 
development. The provision of coherent, comprehensive assistance and a 
durable solution to internal displacement is a USAID priority.

          HUMANITARIAN ASSISTANCE IN A CHALLENGING ENVIRONMENT

    The U.S. Government has pledged more than $320 million in 
humanitarian assistance to conflict-affected individuals in the North 
West Frontier province (NWFP) and Federally Administered Tribal Areas 
(FATA). Of that amount, the United States has already provided more 
than $171 million in humanitarian assistance, $122 million of which was 
programmed by USAID's Bureau for Democracy, Conflict, and Humanitarian 
Assistance.
    The USAID response began in August 2008, when monsoons and military 
operations resulted in the displacement of more than 420,000 people. 
USAID supported the Government of Pakistan efforts to assist not only 
those who were displaced, but also the conflict-affected communities. 
Our assistance included water, sanitation, and hygiene programs, basic 
health care, and short-term employment activities.
    In early 2009, the number of people displaced by conflict continued 
to increase, and food was identified as the most urgent need. In 
response, USAID provided nearly $30 million in food assistance, $21 
million from USAID's Office of Food for Peace (FFP) and nearly $9 
million from USAID's Office of U.S. Foreign Disaster Assistance (OFDA) 
for the local and regional purchase of food aid. The food aid purchased 
locally, which is a critically needed complement to our traditional 
food aid, quickly addressed the acute food needs of those displaced 
while having an added benefit of stimulating the local economy. USAID 
also increased assistance for other identified needs, including basic 
health care, shelter, and emergency relief commodities.
    As the crisis rapidly escalated in May, USAID and other U.S. 
Government agencies responded swiftly. With the endorsement of 
Ambassador Holbrooke, and at the request of Ambassador Patterson, OFDA 
deployed a Disaster Assistance Response Team (DART) to Pakistan.
    On May 18, Secretary Gates approved $10 million in Overseas 
Humanitarian, Disaster and Civic funding to assist relief efforts. On 
May 20-21, three U.S. Air Force C-17 sorties delivered 50 tents and 
120,000 Halal meals to Pakistan. This was followed shortly thereafter 
with DOD's delivery of locally purchased air conditioners, generators, 
water trucks, and other items, such as sandbags and shovels, for 
follow-on distribution to assist Pakistani IDPs.
    The DART team--composed of USAID experts with over 15 years of 
Pakistan and regional disaster response experience in food aid, 
shelter, and displacement--was charged with managing U.S. Government 
assistance and coordinating efforts with the Government of Pakistan and 
the international humanitarian community.
    Upon arrival, the DART found that there were no field assessments, 
which provide the data needed to make informed funding decisions. 
Security conditions prevented travel to conduct assessments in the 
affected areas. The typical coordination mechanisms were not 
operational, and other donors were providing only promises of 
assistance.
    The team knew from experience working in Pakistan on the 2005 
earthquake response that the displaced would shelter with host 
families. And the DART's experience proved true. The majority of 
internally displaced persons--more than 87 percent--had moved to host 
communities, while the remainder resided in 32 organized camps, more 
than 4,000 schools, and numerous spontaneous camps or transit 
locations.
    The DART moved immediately and decisively to provide rapid, robust, 
and creative assistance programs.
    With the strong support of Ambassador Anne Patterson and USAID 
Mission Director Bob Wilson, the DART spent its first days on the 
ground assessing the humanitarian situation and partner capacities. Due 
to significant security constraints, the team devised creative ways to 
gather the necessary information, gleaning facts from regular 
consultations with humanitarian partners and government officials, 
supplemented by--and ground-truthed with--limited field assessment.
    Because coordination is critical, the DART assumed responsibility 
for partner coordination efforts in support of the Government of 
Pakistan. Combined with USAID's funding to strengthen the humanitarian 
coordination system, these efforts helped fill the initial coordination 
gap in Pakistan.
    Once the DART identified needs and reviewed proposals from 
partners, they were able to fund programs within 3 to 5 days. After 2 
months on the ground and despite enormous security constraints, the 
DART successfully programmed more than $116 million in assistance 
through 12 nongovernmental organizations and 6 U.N. agencies.
    As the IDP crisis unfolded, the DART--working in collaboration with 
the Embassy and Mission--ensured our emergency assistance increased to 
keep pace with the needs. When displacement increased from 290,000 
people in February to nearly 550,000 in March, USAID humanitarian 
assistance doubled--from $9.4 million to nearly $20 million. After 
Pakistani Taliban advances and the Government of Pakistan's military 
response nearly quadrupled the number of displaced individuals in May 
2009, USAID again responded by quadrupling humanitarian assistance to 
more than $90 million. This does not include the assistance that 
Assistant Secretary Schwartz has described from State's PRM Bureau, 
which is also supporting the IDP populations.
    USAID humanitarian assistance is driven by needs identified in the 
field. When the security situation allowed, we pushed to make regular 
visits to the affected areas to assess the situation. Our assessments 
and those of our partners provided us with necessary information to 
modify or target our assistance based on changing needs.
    The DART provided assistance to address the needs in displaced 
persons camps, but we focused our resources to support the displaced 
residing in host communities and to the host communities themselves. 
Our assistance included water, sanitation, and basic health care 
programs. We also provided relief supplies such as hygiene kits and 
shelter materials to the displaced and their hosts. We also provided 
rent subsidies to reduce host family burdens and ensure that the 
displaced did not place an untenable strain on host families.
    In Mardan district, host families, communities, religious 
organizations, and local charities were providing assistance to 
displaced individuals. USAID targeted its assistance to meet the needs 
of the displaced and host families through the provision of $45 
vouchers to households. The vouchers were distributed to more than 
90,000 displaced Pakistanis residing in host communities and schools 
and to 5,000 host families struggling to provide not only for 
themselves but also for those displaced. The vouchers enabled 
Pakistanis to purchase exactly what they needed at local markets. 
Something as simple as a voucher program can provide a much-needed 
sense of self-reliance, and it helps stimulate the local economy, which 
is critical to longer term recovery.
    In already overstressed host communities, houses meant for 10 
people were inhabited by 30 and sometimes more. So USAID provided 
assistance that included training and supplies for the construction of 
bamboo shelters, which families can easily disassemble and carry with 
them when they return to their homes.
    When displaced Pakistanis identified food as a continuing need, 
USAID was able to quickly provide an additional $26.6 million for the 
local purchase of food aid. The food, which consisted of wheat and 
beans, was purchased in Pakistan--again bolstering the local economy.
    During a recent DART assessment mission to Buner, the team noted 
that there were few income-earning opportunities in the area, thus 
those who returned would not be able to make a living. To help provide 
jobs and boost the local economy, USAID is reprogramming funds and 
allocating additional resources for further cash for work programs for 
returnees.
    Providing humanitarian assistance quickly and creatively is not 
sufficient. Our assistance mechanisms must also remain flexible to 
adequately respond as the crisis evolves or subsides. By providing the 
majority of our assistance through grants to partner organizations, we 
maintain the flexibility needed to respond to rapidly changing 
situations by reprogramming or retargeting our funding as needs are 
identified.
    To ensure our ability to respond rapidly to changing circumstances, 
USAID has supported prepositioned relief supplies--including food, 
household tool kits, emergency kitchen sets, water containers, and 
blankets--for distribution should the situation change and currently 
unknown humanitarian needs develop. This includes USAID support for a 
World Food Programme logistics hub and warehouse in Punjab province to 
ensure that our partners are ready to respond to potential displacement 
from Waziristan.
    USAID also realizes that unknown needs will continue to be a 
challenge in Pakistan. To prepare for possible future needs, USAID has 
established an umbrella grant that allows for subgrants to local NGOs, 
international NGOs, or U.N. agencies. This mechanism is designed to 
provide rapid response funds for possible humanitarian needs anywhere 
in the country.
    There are significant operational challenges to providing 
assistance in Pakistan, but USAID continues to address the challenges 
head on, allowing us to provide timely and appropriate assistance to 
Pakistanis in need. Operating in support of the Government of 
Pakistan's efforts, USAID's singular ability to quickly respond to the 
Pakistan IDP crisis with fast, flexible, and creative programming 
prevented further destabilization in NWFP and FATA.
    Before discussing our returns and early recovery programs, I want 
to point out that the security situation is the No. 1 challenge to 
humanitarian operations in Pakistan.
    The fluid security situation in NWFP and FATA means limited, and at 
times no, humanitarian access to the conflict-affected communities. The 
risks are high, with recent kidnappings and killings of humanitarian 
staff. Just this month, gunmen killed a United Nations High 
Commissioner for Refugees staff member and his guard, while wounding 
another staff member. Sadly, other aid workers have also been killed or 
wounded while working to meet humanitarian needs. NGOs are reluctant to 
hire personal security details or use armored vehicles for fear of 
negatively impacting programs and becoming larger targets. U.N. 
agencies are using armored vehicles, but even these do not adequately 
mitigate all risks.
    Our NGO partners report that their ability to travel in the 
affected areas has become significantly more difficult since April. 
Security incidents have targeted both local and international aid 
workers, and the female Pakistani staff are particularly concerned for 
their safety. Since the June 9 bombing of the Pearl Continental Hotel 
in Peshawar, increased responsibility has been placed on host country 
nationals to carry out operations in areas considered unsafe for 
international staff.
    The security challenges faced by our implementing partners in 
Pakistan are real, and we continuously consult with them to learn what 
additional options might be available to mitigate their risks. USAID 
remains willing to support additional security training, increased 
operational security analysis, and efforts to improve humanitarian 
security coordination. USAID also continues to work with the donor 
community to ensure security precautions are adequately resourced.

                 SUPPORTING RETURNS AND EARLY RECOVERY

    As displaced families return home, the pressures on the camps and 
the host communities are likely to diminish. USAID is committed to 
ensuring sustainable returns and successful recovery. USAID continues 
to assist the displaced while simultaneously refocusing programs to 
meet changing needs.
    According to Pakistan Government officials, up to 700,000 displaced 
individuals, representing approximately 30 percent of the government-
verified displaced population, have returned to areas of origin in 
recent weeks, including areas in Buner, Swat, and Lower Dir districts 
in NWFP and Bajaur Agency in FATA.
    The majority of unassisted returns are families previously living 
with host communities in Mardan and Swabi districts. The number of 
spontaneous returns to Swat remains unknown; however, the Buner 
District Coordination Officer reported to our DART team leader that up 
to 320,000 people, approximately 65 percent of Buner's displaced 
population, have returned to date. An additional 59,000 families 
returned during the July 13-22 Government of Pakistan-assisted returns 
process. As a result of these large-scale returns, the government 
closed two camps in Mardan, and announced plans to close two more. On 
July 21, OFDA's Principal Regional Advisor for South Asia flew over 
these camps and described them as ``desolate.''
    The DART was the first donor to assess the situation in Buner and 
Swat, seeing the rapid spontaneous returns firsthand. After the 
assessment, the DART quickly reprogrammed funds to assure that U.S. 
assistance would follow those who were returning home.
    Knowing the importance of assisting returnees and preventing a 
secondary wave of displacement, USAID will support quick-impact 
projects for the reconstruction of damaged infrastructure in areas of 
return. An important aspect of our early recovery strategy is to 
support projects designed and driven by the communities in which they 
will be implemented, helping provide returnees a sense of ownership and 
self-sufficiency.
    USAID is working with communities to rebuild critical 
infrastructure that also provides short-term employment opportunities 
for affected populations. USAID funding is helping rehabilitate 
electrical systems, wells, and irrigation channels that are necessary 
before families are able to return to their homes.
    Additionally, USAID's Office of Transition Initiatives is 
supporting the Government of Pakistan's efforts to reestablish a 
presence in conflict-affected areas and restore essential services. We 
are helping rebuild public buildings and return civil servants to 
conflict-affected areas. And we are working with the Government of 
Pakistan to identify and repair the roads, educational institutions, 
and hospitals damaged during the conflict. By creating jobs and 
rebuilding infrastructure, USAID programs will help foster sustainable 
returns.
    Due to the local economies' dependence on agriculture, USAID will 
also support the provision of farming tools and grain and vegetable 
seeds, as well hygiene kits and tool kits to be used for small home 
repairs.
    The Pakistan Government estimates that the private sector comprised 
over 60 percent of the health sector in Buner alone and that the 
private sector will be slow to return. In an effort to provide 
necessary health care while services remain damaged and without staff, 
USAID will support mobile clinics, basic medicines, and staff--
particularly female doctors and nurses--to provide assistance in areas 
of return.
    Through the World Food Programme's new food distribution hub in 
Buner district, food aid provided by the United States will continue to 
support monthly family food rations for returnees until agriculture and 
livelihood activities in affected areas resume. USAID's Food for Peace 
Office will contribute an additional $20 million of food aid in August, 
which will mean the consistent flow of U.S. food shipments into 
Pakistan through February 2010. Additionally, the U.S. Department of 
Agriculture has pledged a total of $43.5 million in food assistance, 
which will be added to the WFP food aid pipeline until the year's end. 
In total, the U.S. Government has pledged $135.5 million in food aid in 
response to the crisis. Our significant and timely food contributions 
will ensure sufficient food support to the large numbers of displaced 
who are now returning home and starting to rebuild their lives and 
livelihoods.
    Humanitarian agencies are formulating strategies and refocusing 
assistance to support early recovery and returns. The key challenges 
include security, accurate and timely information dissemination to 
displaced populations, and ensuring that the returns process is 
voluntary and sustainable.
    To help ensure that accurate and timely returns information is 
widely disseminated, USAID is working with the United Nations 
protection cluster to develop rights- and return-based messages and key 
information for release to affected populations. These messages, which 
provide information on relief assistance and returns, will be 
coordinated with the relevant Pakistan Government departments including 
the NWFP Government's Emergency Response Unit.
    Coordination between USAID disaster experts and the USAID Mission 
on reconstruction, health, livelihoods, agriculture, and education will 
facilitate the transition of short-term activities to longer term 
development programming. USAID Mission staff are also actively engaged 
in initiating and expanding immediate and medium-term activities.
    This emergency assistance is in addition to the more than $4.4 
billion the United States has provided to Pakistan since 2002 to 
improve economic growth, education, health, and governance and to 
assist with earthquake reconstruction.

                               CONCLUSION

    Working in support of Government of Pakistan efforts, USAID--
alongside our U.S. Government partners--provided a rapid response to a 
complicated, challenging, and swiftly evolving crisis. Now that the 
situation has transitioned from displacement to returns and early 
recovery, Pakistan will soon begin to focus on near- and long-term 
reconstruction efforts.
    As the United States shifts to longer term programs, USAID has 
transitioned the DART to an OFDA field office. Like the DART, the field 
office will continue to identify and respond to priority humanitarian 
needs, work to enhance coordination and cohesion throughout the 
humanitarian community, and evaluate response effectiveness. The field 
office will remain engaged and prepared to meet emerging humanitarian 
needs in Pakistan, while working closely with the Embassy and USAID 
Mission during the transition from relief to development.

    Senator Casey. Thank you very much, Mr. Brause.
    I wanted to--for the benefit of our colleagues, we'll limit 
the question round to--first question round to 5 minutes, so--
if people have to go. But, I do want to welcome, as well, 
Senator Cardin, Senator Corker, and Senator Barrasso, who 
joined with us, along with Senators Shaheen and Kaufman, that 
we welcomed earlier.
    One thing that I wanted to make clear for the record, just 
so I'm understanding it correctly, is the number we have 
asserted I want to make sure this number is, again, on the 
record. The U.S. Government has pledged more than $320 million 
in humanitarian assistance. I want to compare that to this 
chart, which has a total of U.S. Government funding at $171 
million. I guess that is the money spent to date. We talk about 
numbers, and that's important. It's important that the American 
people know what they're doing to help, here. We also talk 
about the violence, I guess, from a distant perspective. But, I 
was struck by the front page of yesterday's Wall Street 
Journal, a really stunning picture of what we're talking about 
here and you won't be able to see it in the audience, but I'll 
just read the caption and then the headline over the picture.
    The headline over the picture says, ``Returning Refugees in 
Pakistan Conflict''--or, ``in Pakistan Confront Renewed Taliban 
Violence.'' The caption reads as follows, ``Three girls at a 
checkpoint Sunday are part of the flood of refugees returning 
to Pakistan's Swat Valley after the military declared it 
secure, but Taliban militants are again infiltrating the 
region, kidnaping and beheading perceived enemies, and 
ambushing soldiers,'' a graphic summary of the violence and the 
threat and the stunning implications of what's happening over 
there.
    But, fortunately, the picture tells another story. These 
three young girls, three beautiful girls, two of them, you can 
see them--one is obscured a little bit, but two of them 
smiling, in the midst of all that violence and all that trauma. 
So, if those children, those young women, can smile in the 
midst of all that violence and displacement and horror, really, 
we've got to stay focused on this problem.
    And for those out there who say, ``Well, this is something 
distant and halfway across the world,'' they ought to take a 
look at that picture and also understand the grave reality of 
what a crisis like this does in its threat to our own national 
security.
    So, I was struck by that picture, I guess, because I'm the 
father of four daughters. Maybe that hit me in a particular 
way.
    But, I wanted to talk, first of all, about a troubling 
development here, about what I would argue--and I--if I'm wrong 
about this, I'd ask either of our witnesses to correct me if 
I'm wrong, but--what I perceive, and I think what a lot of 
people perceive, is a deliberate attempt to obscure the United 
States role here by some officials in Pakistan.
    American officials are not permitted inside IDP camps. And 
some of this was outlined in a recent New York Times story. 
They're not permitted in those camps to help supervise the 
distribution of U.S. aid. American military planes are not 
allowed to deliver the assistance, and U.S.-supplied products 
are not identified as such, as coming from the people of the 
United States.
    First, and I'll start with you, Assistant Secretary 
Schwartz--can you explain the Government of Pakistan's policies 
in obscuring the United States role? And second, Are they 
asserting, in that obscuring of our role, any legitimate 
security reasons for these kind of restrictions? If I can get 
your perspective on that.
    Mr. Schwartz. First, I'm a pretty senior American official, 
and I was in the Jalozai camp, with 80,000-87,000 displaced 
persons, several days ago with pretty extensive media 
attention. So, that would be my first point.
    My second point is that this is, as it should be, a subject 
of careful dialogue and discussion between the Government of 
the United States and the Government of Pakistan. So, for 
example, our food deliveries do indicate that that assistance 
is from the people of the United States. As a general matter--
and Jon can speak in greater detail about this--USAID 
implementing partners are expected to indicate that assistance 
is provided by the people of the United States of America. But, 
in very many instances, to do so could put assistance providers 
at grave risk. In those circumstances, discretion is the 
appropriate policy course.
    I think that we absolutely have public diplomacy objectives 
in Pakistan, and I think the Pakistani Government appreciates 
those objectives. And I think the government also shares those 
objectives. But, in the actual implementation, we have to be 
careful, because lives are at stake. It's a complicated issue, 
but I think we're handling it responsibly.
    Senator Casey. Mr. Brause.
    Mr. Brause. As the Assistant Secretary said, all of the 
food assistance, whether it's in-kind commodities provided from 
the United States or the local and regionally procured 
commodities, they're all marked very clearly as gifts from the 
people of the United States, as are most of the resources that 
are provided by the Office of Foreign Disaster Assistance.
    There are cases where our partners can come to us and ask--
as, again, the Assistant Secretary has said--for security 
reasons, not to mark U.S. commodities. But, as a general rule, 
the predominance of U.S. assistance is marked.
    There are also cases, though, where we recognize that we 
want to put the Government of Pakistan's face on certain 
activities, because it's very important that they demonstrate 
their presence and their capacity to provide services to the 
people. And so, there are some activities that we support, 
where we're not advertising the role of the United States, we 
want the Government of Pakistan to be seen as an effective 
government. So, there is a balance, depending on the activity 
that we're undertaking. But, on the humanitarian side, in 
particular, the vast majority of the U.S. assistance is clearly 
marked.
    Senator Casey. Thank you for addressing that, both of you.
    I'm actually over. Violating my own rules, here.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman. And thank both of 
you for your service.
    I know the chairman alluded to a story read in the Wall 
Street Journal. I think most of us probably read that, and have 
had other stories--there have been other stories regarding the 
violence that is taking place as these people return home from 
the camps. And, at the end of the day, I know you want to see 
that happen as quickly as possible. What kind of--what ability 
does the Pakistani Government have to actually provide security 
for folks that are returning? I know the chairman mentioned one 
side of it, but, as they are returning home, does the 
government actually have the ability to provide security for 
these folks over the long haul?
    Mr. Schwartz. First of all, thank you for your question, 
Senator Corker; it is a very important one. There is a security 
presence of the government in areas of return, and government 
officials and the military are providing security in particular 
areas. Ultimately, the objective is to create conditions in 
areas of return in which there is enough diminished violence 
that people feel comfortable going back, and that the risk is 
diminished. In some parts of the territory, there is a much 
greater level of security; and in others, less so. In more 
populated areas, Swat and Buner in particular, we see larger 
numbers of people going back, because the areas are less 
threatened by the Taliban. In areas in the north of Swat and 
less populated areas, conditions are more difficult, which is 
why the return must be voluntary, and which is why, for the 
time being, the Pakistani military authorities need to be 
present in areas of return.
    Senator Corker. And, at present, are they building trust 
among the folks that are returning? Obviously, the thing that 
turns these camps into permanent locations for folks is the--
people going back, and the security not being there. So far, 
the folks that are returning to the areas that are more 
populated, that is building trust, within the camps, for more 
folks to come back to their normal locations, or not?
    Mr. Schwartz. That is the policy objective. This is a 
process that has started over the past couple or few weeks, and 
I think the proof will be, as they say, in the pudding. As 
people go back, and as people are able to resume their normal 
existence, more and more people in the camps will have greater 
and greater levels of confidence about going back as well. So, 
it is a key policy priority for the Government of Pakistan 
right now to both create the conditions for safe returns, and 
in those areas, provide a measure of protection. The initial 
reports are that people who are going back to very populated 
areas are beginning to resume their lives. But, I think this is 
going to be an effort that we, and the Government of Pakistan 
and the Pakistani military, are just going to have to sustain, 
and it is very much a work in progress.
    Senator Corker. And it's probably actually, sort of, the 
key issue, really, isn't it, as far as the long haul goes?
    On another front, I guess, as people go back to their 
homes, my understanding is, two-thirds of the crops were 
actually destroyed during this period of time. So, what is 
happening there? I mean, as people go back to their homes, 
that--you know, agriculture was a big part of the economic 
activity--two-thirds of the crops, obviously, were destroyed, 
or at least that's what I understand. What are we doing to 
actually--after they get home, if there is security, what are 
we doing to ensure that they actually have the ability to have 
a livelihood?
    Mr. Schwartz. I'm going to invite my colleague to answer 
some of that question, because some of it involves the work of 
USAID. I think your questions really go to the package of 
assistance for people who are going back under conditions of 
uncertainty; even under the best circumstances, these are 
conditions of uncertainty. In the first instance, the 
Government of Pakistan provides transport for returnees; and in 
the second, the Government of Pakistan has pledged to provide a 
military presence until a police presence can be established. 
The UNHCR provides nonfood items, focused in areas of return. 
And local and provincial authorities in the North West Frontier 
Province are involved in the effort of reestablishing services, 
including the kind of agricultural activity to which you 
allude.
    But, my colleague Jon may have more on that.
    Mr. Brause. Senator, for returnees, there's always a 
hierarchy of issues that they look at before they decide 
whether or not to return. And it's the same in Pakistan.
    So, the first one is obviously security. If the areas 
aren't secure--and the displaced tend to have their own 
networks of information, they'll find out if the area is 
secure--if it's secure, they'll begin to go back. But, the 
second issue they look at is livelihoods. And in the case of 
the farmers, we have to help them bridge that gap, since they 
lost this harvest, and then give them the resources to plant 
and tend the fields appropriately for the next harvest. So, the 
World--we have provided resources to the World Food Programme. 
Again, I think 90 percent of the resources provided for food to 
date are from the United States. And the World Food Programme 
is prepared to provide food packages to returnees for up to a 
year, if necessary, to ensure that they get back and are able 
to tend their fields and support their families while they're 
preparing for the next harvest. At the same time, as I 
mentioned in my statement, the Office of Foreign Disaster 
Assistance is preparing return kits through its partners that 
would include seeds and tools and other materials that they 
might need to reestablish their livelihoods.
    So, it's a major focus of the international community to 
make sure that livelihoods can be reestablished, and that will 
draw the people back.
    Senator Corker. Mr. Chairman, I thank you for the time.
    The work that you all are doing is very, very important, 
and I appreciate the way you're carrying it out. I just was in 
Darfur and saw a camp that's been there for a long time. And 
the security issue and the ability for people, because of that, 
to actually make a living back in their homeland is--those are 
permanent. I mean, they--I hope, not permanent forever, but 
right now they're permanent structures being built. I was just 
in Gaza with the United Nations, and there are camps there that 
have been there 50 years. So, while the work that you are doing 
is important, from a humanitarian standpoint, I hope that we 
will have a robust effort to do everything we can to cause 
these camps to dissipate and go away and not become permanent 
by making sure that, as people come home, they are secure and 
they have the ability to make a living doing what they've been 
doing in the past. But, again, thank you very much.
    Mr. Chairman, thank you for the time.
    Senator Casey. Thank you, Senator Corker.
    Senator Feingold.
    Senator Feingold. Thank you very much, Mr. Chairman.
    Secretary Schwartz, I'm concerned that the Pakistani 
military continues to remain at the forefront of the recovery 
efforts for internally displaced Pakistanis. And on your recent 
trip, you said that coordination between civilian and military 
agencies was effective. But, you know, I've also heard reports 
that, in fact, poor coordination has hindered effective 
recovery efforts. It troubles me that, although we have seen 
some support among the local population for the recent military 
operation, that civilian capacity is actually still pretty 
lacking.
    Can you tell me whether Pakistan's civilian agencies are 
participating in long-term planning for recovery? And what is 
the likelihood that the return and recovery efforts will be 
managed by--actually by civilian agencies down the line?
    Mr. Schwartz. Let me answer your question and address a 
related issue.
    First, I think the short answer is that as we move from the 
emergency phase to the recovery and development phase, we will 
see the increased predominance of civilian agencies of 
government in those kinds of activities. For example, 
discussions about reconstruction are mostly within the civilian 
agencies.
    Right now, I would say it is a joint effort between 
civilian and military authorities. There is a special support 
group, which is very ably run by Lt. Gen. Nadeem Ahmed. He 
works very closely with an emergency unit of the North West 
Frontier Province. The Pakistani Government cochairs the 
international ``clusters'' in sectoral areas, focusing on the 
relief effort with U.N. agencies. There is also a Pakistani 
Government Returns Task Force. This overall structure is very 
much military and civilian, and the military is playing a large 
role. I do believe that, over time, as we move from the 
emergency phase to recovery and reconstruction, you'll see a 
much greater engagement of civilian authorities.
    I also want to raise the issue of coordination; in 
particular, coordination of international donors and assistance 
providers. Right now, I would say it's adequate, but the 
challenges in this regard, especially as we get into a 
multibillion-dollar reconstruction effort, will be formidable. 
I think that the Pakistani Government deserves to know who it's 
dealing with in the decisionmaking process. We have been 
talking to the Pakistani Government and international 
organizations about coordinating more effectively the 
humanitarian, recovery, relief and development efforts from the 
international community.
    Senator Feingold. Thank you. And recognizing that it's very 
difficult to obtain precise numbers of those Pakistanis who are 
returning, because many of them have been living in the host 
community and not in camps, it would seem that if the United 
Nations is reporting that some 400,000 people are returning 
home, there are still over 1 million who remain displaced and 
will be in need of continuing assistance. So, what plans are 
underway to ensure this portion of the population, as well as 
those in the host community that are providing support, are 
adequately taken care of and have access to critical amenities? 
And how can the United States work with the Pakistani 
Government, at the federal and local level, to ensure that they 
actually receive sufficient support?
    Mr. Schwartz. First of all, the latest numbers are actually 
even larger than the 400,000 you identified. The latest numbers 
we saw were 700,000 returnees. But, I think your point is 
absolutely right; we will still see hundreds of thousands of 
displaced persons who won't be able to go home over the next 
many weeks or months, even if we have continued large-scale 
returns. Right now, as I mentioned, the donor community has 
only funded the humanitarian appeal at about 40 percent. That 
is inadequate. What we need to do first is continue to go to 
other governments and press them as hard as possible to support 
the relief effort. Second, we need to be prepared to do more in 
the months to come, not only in this fiscal year, but in the 
next fiscal year. I think this is where we are going to need to 
turn to the Congress for support.
    Senator Feingold. Thank you so much.
    Thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator Feingold.
    Senator Cardin.
    Senator Cardin. Well, Mr. Chairman, first of all, thank you 
for holding this hearing.
    The internally displaced persons in Pakistan represent a 
real challenge for the stability of the Pakistani Government, 
and it is of great interest to the United States. So, I thank 
you both for your work in this area. I think it's extremely 
important. And I certainly support our bilateral effort with 
Pakistan to enhance Pakistan's capacity. I'm a cosponsor of the 
Enhanced Partnership with Pakistan Act, which would provide 
additional resources.
    But, I think the challenge here--and we've had some of the 
questions back and forth--the challenge, I think, is twofold in 
our bilateral efforts, on what we do directly. One, there is 
the point that the chairman brought up in his questioning as to 
the political reaction within Pakistan. It seems like that if 
there is a direct U.S. involvement, it has a negative political 
consequence, from the point of view of the local political 
establishment, which is troubling to us and can compromise the 
effectiveness of our work.
    And second, nothing substitutes for Pakistan's capacity to 
deal with its own issues, whether it's security, economics, or 
the humanitarian issues of dealing with the displaced 
individuals.
    So, it seems to me that the preferred course is what you've 
been referring to in some of your responses to questions--to 
enhance the international capacity, obviously, with U.S. 
involvement and leadership.
    We saw in the Balkans that the OSCE played a critical role 
in developing the capacity of governments to deal with the 
problems of security, economics, and humanitarian issues. 
They're prepared to do it. There are international 
organizations that can help us in developing this type of 
capability, whereas the United States does not have the direct 
services that can be as effective as the international 
community in making progress.
    In Afghanistan, we've found that Afghanistan is a partner 
for cooperation with the OSCE, and there's a mission working 
currently dealing with border security that is having some 
effectiveness. My point is that engaging the international 
community seems to be a preferred route.
    Pakistan is not a partner for cooperation with the OSCE. I 
think that's regrettable. I think Pakistan should be a partner, 
and it would be in its interest to do that.
    My point and my question to you is this, ``Is the political 
response within Pakistan to the involvement of the 
international community--is there more hope that it would be 
acceptable to the political establishment in Pakistan--if we 
did more through the international community than direct United 
States involvement?'' And what has been the attitude of the 
Pakistani Government to the assistance from the international 
community?
    Mr. Schwartz. Well, you've asked a big question. First of 
all, I would not diminish the significance of the extent of 
Pakistani engagement with the international community on these 
issues. I think there is a willingness and a receptiveness to 
such engagement, and I think the best evidence of that is on 
the ground. There are a broad range of international assistance 
providers and international organizations, on the humanitarian 
side, as well as the recovery and development side, that 
Pakistani officials, both at the very senior level, in 
Islamabad, and also in the field, are engaging effectively. 
That happens every day of the week, involving organizations 
from UNHCR to the ICRC, with which the government has a 
longstanding relationship. Not all governments have this 
relationship, but the Government of Pakistan does. It also has 
relationships with the World Food Programme, as well as UNICEF, 
nongovernmental assistance providers, and of course, the World 
Bank and the Asian Development Bank.
    There is this level of comfort in Pakistan with 
international organizations, so the kind of engagement and 
capacity-building to which you allude, is very possible, and is 
largely ongoing. In fact, I think the principal limitations at 
this point for further engagement and presence of a lot of 
international organizations, in many respects, is the security 
situation.
    Senator Cardin. Would it be a preferred route for the 
United States policy to strengthen the international presence 
within Pakistan rather than trying to do this on a bilateral 
basis?
    Mr. Schwartz. I think the answer is both, which is 
reflected in the two witnesses that you have in front of you. 
My Bureau, the Bureau of Population, Refugees, and Migration, 
works primarily through international organizations, such as 
UNHCR and the ICRC, and others. And that has great value, both 
for our relationship with Pakistan and for Pakistanis, and for 
our ability to leverage other governments to do more. At the 
same time, USAID works largely bilaterally through implementing 
partners. I think both are important. Both serve valuable 
purposes, and I think we need to sustain both sets of efforts. 
As valuable as is the notion of capacity-building, we shouldn't 
diminish the fact that there is a good deal of capacity in the 
Pakistani Government already, and not only on the military 
side. In this particular case, the North West Frontier Province 
government heads up the civilian side of the IDP effort. On the 
issue of Afghan refugees, there is a Commissionerate for Afghan 
Refugees, which is a Pakistan Government entity working with 
both IDPs and refugees. There is a massive registration process 
in Pakistan, with the provision of cards for the displaced 
persons, in which each displaced person receives, I believe the 
equivalent of about $300 in the return process. This is a 
massive undertaking, wholly being carried out by Pakistan 
Government civilian authorities.
    There is considerable capacity there, but I think--the kind 
of engagement you're talking about is critical, and we need to 
sustain it, both at the international organization level, as 
well as in our bilateral programs.
    But, let me defer to my colleague on the latter.
    Mr. Brause. Just one additional comment. I strongly support 
what the Assistant Secretary said. Having that two-pronged 
approach is very helpful.
    With regard to what AID does on the ground, we have seen 
that the Government of Pakistan, from the time of the Pakistan 
earthquake until today, has absorbed many critical lessons in 
the management of a crisis. And so, because they've gotten 
information and support from the international community, and 
because they get bilateral support from the United States, 
they're very much more able, now, to take over some of these 
programs, and they don't need as much help. We're there to 
guide them, but they have demonstrated, in this crisis--which 
we all know was extremely rapid-onset, and has now begun to 
show that it might be, to some extent at least, extremely rapid 
in defusing, at least for some of the people--that the 
Pakistanis really have picked up a lot of the burden on 
themselves, and have shown some significant capacity to manage 
the problem.
    Senator Cardin. Well, I thank you for the response. I'm 
still not particularly clear as to the effectiveness of the 
international commitment to Pakistan.
    Thank you, Mr. Chairman.
    Senator Casey. Senator Cardin, thank you very much. And I 
want to note, for the record, that Senator Cardin's work on 
other refugee issues--we had a hearing earlier this year on 
Iraqi refugees, and I appreciate his work in this area.
    And Senator Shaheen has demonstrated great patience here, 
arriving early and--because of the rules of the committee, we 
go by seniority, and I know what it's like to be at that end of 
the table in the full committee.
    So, Senator Shaheen, thank you for your patience, and we 
might actually give you a couple of extra minutes because of 
that. [Laughter.]
    Senator Shaheen. Well, thank you, Mr. Chairman. I've 
actually moved up today, so I feel pretty good.
    Thank you both for all of the efforts underway in Pakistan 
to help the refugees.
    Mr. Schwartz, as I'm sure you remember at your confirmation 
hearing, we talked about the challenge facing your agency. And 
I especially appreciate how quickly you have responded, and 
your recent visit there.
    One of--after visiting Pakistan at the end of May--we were 
there at a time--with a delegation from the Senate--when public 
opinion had flipped, as you pointed out in your polling, in 
your remarks, so that there was a change in support for the 
Taliban and a change in support for the military operation in 
Swat. Do you have a sense, from your recent visit, of how the 
public opinion currently is, relative to supporting a military 
operation, and how much time you think we have, and the 
Government of Pakistan has, in terms of continuing that 
operation in a way that maintains their public support?
    Mr. Schwartz. The honest answer is I don't have 
information, beyond the polling data to which I referred. I do 
know that time is a critical issue here, which is why we are 
both very supportive of what the Pakistani Government is trying 
to do in Swat and other districts of the North West Frontier 
Province and agencies of the Federally Administered Tribal 
Areas, including the military campaign underway and the effort 
to make areas safe. But, there is a tension, and there is no 
easy answer to this tension. On the one hand, nobody wants 
these camps to be around for very long, and the government is 
determined to see that people go back. At the end of the day, 
that is the best recipe for sustaining support among the 
people, especially if they have real opportunities for early 
recovery and development.
    At the same time, worse than keeping people in displaced 
person camps is sending them back prematurely, the result of 
which is they cannot restart their lives. Even worse, we may 
encourage secondary migration out, which is why in addition to 
supporting the Government of Pakistan, we have emphasized the 
importance of the voluntariness of return. The government 
understands why we have emphasized that, and that is also the 
government's policy. But, there is this great tension, and time 
is a critical element.
    What I can say is that our support has been absolutely 
essential in sustaining the fragile progress we have seen. And 
what are we talking about, here? What we are talking about is--
especially in this border area--groups that threaten our 
interests directly in the region. They are prepared to attack 
our soldiers in Afghanistan, and are in close contact with 
elements that threaten our homeland. It is difficult to 
overstate the importance of the exercise in which we're 
engaged.
    Senator Shaheen. Thank you. I appreciate that reminder that 
we should all be committed to this effort.
    There has been some concern expressed, in recent weeks, as 
we have ramped up our military push in the south of 
Afghanistan, that that will push more Taliban into Pakistan and 
further destabilize Pakistan. You mentioned the second--the new 
phase of this crisis, where we are already seeing more 
displaced persons from South Waziristan. And what are we doing 
to ensure that our military efforts in Afghanistan can address 
the humanitarian crisis--a new phase of this humanitarian 
crisis that I'm sure is also, as you pointed out, exacerbated 
by the Pakistani efforts in Waziristan?
    Mr. Schwartz. Well, you're getting a little bit--more than 
a little bit--into the area that is really the responsibility 
of our Special Representative for Afghanistan and Pakistan, 
Ambassador Holbrooke. I think he should really speak to you 
about this. What I can say, and I think he would not object to 
my saying so, is that I believe, for the first time in a long 
time, we really are developing what I would call a ``whole-of-
government effort'' on Pakistan and Afghanistan.
    Senator Shaheen. But, you--when you--let me just stop you 
for a minute--when you say ``we are developing,'' you mean the 
United States----
    Mr. Schwartz. The United States of America.
    Senator Shaheen [continuing]. Effort is a whole----
    Mr. Schwartz. I'll explain what I mean. A whole-of-
government effort on Pakistan and Afghanistan includes two 
dimensions. No.1, it means, with the Office of the Special 
Representative for Afghanistan and Pakistan, making sure that 
all of the agencies that are operating in this area are 
operating to a common end. I saw evidence of that in my trip to 
Pakistan with Ambassador Holbrooke. In his meetings and in our 
meetings, with AID officials and with other officials, he 
sought to ensure that a coherent strategic approach was guiding 
all of the organizations. The second component is viewing the 
region as a region, and therefore, understanding that what we 
do in Afghanistan is going to have an impact in terms of 
Pakistan, and vice versa, which means a much greater degree of 
contact and communication with the Government of Pakistan and 
Afghanistan about what's happening in the other country, and a 
greater degree of coherence and coordination.
    I think the issue you raised is critical. On the details, 
you really should speak to Ambassador Holbrooke. This is his 
terrain.
    Senator Shaheen. Well, thank you. And we also saw good 
evidence that we have a much more unified and coordinated 
approach to the region now, on our visit.
    Thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator Shaheen.
    I wanted to move slightly off topic into another region, 
but, I think, the same issue, and that's refugees in a terrible 
conflict. I was saying to Assistant Secretary Schwartz that I 
wanted to ask him, because of his recent travels, not only in 
Pakistan, but also in Sri Lanka. And I just wanted to get a 
brief update on what you saw there, in terms of the IDP camps 
for the Tamil civilians in the south in Sri Lanka. And I guess 
a couple of basic concerns, if you could address these in your 
response--the conditions, in there, of those camps, No. 1; No. 
2, the continued detention of individuals, if you have a 
perspective on that; and what I would assert as a lack of any 
real movement by the Sri Lankan Government toward genuine 
political reconciliation with the Tamil minority. If you could 
address those, and then I'll get back to a couple of questions 
on Pakistan.
    Mr. Schwartz. Thank you for that question. I think we had a 
really rich and rewarding visit in Sri Lanka.
    First, on the conditions. I think our major concern is that 
the 280,000 Tamils who are in the northern part of the country 
in displaced persons camps are confined to the camps, and that, 
in and of itself, is a great source of concern. As a general 
principle, under international humanitarian principles, 
displaced persons should not be confined; if they want to 
leave, they should leave. That's not very complicated. Second--
--
    Senator Casey. Right now, it's 280,000?
    Mr. Schwartz. About 280,000 of whom about 220,000 are in 
one camp complex, called Manik Farm, the one that I visited.
    Second, we're concerned that international humanitarian 
organizations don't have as comfortable and easy access to 
those camps as we would like them to have. They do have access, 
but it's not as robust as it should be.
    The conditions in the camp are not great, but the 
government and international and local partners are doing their 
best to meet basic needs, but there are problems that need to 
be addressed, which I discussed with the government.
    The government told me they are committed to the return of 
this population as quickly as they can do it. Our position is 
that it should be quicker; it should be as quick as possible. I 
was encouraged. I learned, on this trip, that the government 
intends to return as many as 40,000 or more displaced persons 
to their homes over the next 4 weeks. If that happens, it's a 
good thing. It's not as much as we want, but it would at least 
demonstrate a degree of seriousness about the prospects for 
return.
    When we got there, we had this issue of how do we thread 
the needle. On the one hand, how do we provide assistance to 
people who need it without creating the implication that we're 
supporting a process that we have fundamental concerns about? 
What we've done, and what we announced during our visit, was an 
additional commitment of $8 million for State and AID resources 
for the return process. We want to do what we can to accelerate 
and promote and send the signal that it is now about return. 
This money will be used to promote return, to promote a 
recovery in areas to which people are going.
    I also told the government, and the government welcomed 
this, which was good news to me, that I will come back, over 
the next several months. I will try to keep as much of the 
pressure on as we possibly can.
    Senator Casey. Thank you for that response. Because of what 
I just heard from our staff, we're going to have a rollcall 
vote at 11:30, I may have to switch gears to the second panel 
quickly.
    Before we leave--and I want to offer each of you a minute 
to make any concluding remarks, if you wanted to--and we'll 
submit other questions for the record.
    Please speak to this question of the failure of more 
countries within the international community to respond 
positively, as the United States has--if either of you have a 
perspective or an opinion on that, I wanted to do that, and 
then we'll wrap up.
    Mr. Schwartz. I'll say, very briefly, I think that we have 
seen some progress on the international aid effort. Other 
governments have committed to about $330 million in assistance. 
Only about $150 million of that has come forward.
    Senator Casey. Let me just interject for 1 minute--is it 
correct to say that only 42 percent of the overall appeal, 
which I guess the original appeal was about $543 million----
    Mr. Schwartz. That's exactly right.
    Senator Casey [continuing]. Only 42 percent of that appeal 
has been pledged, to date, by the international community 
overall. Is that about right?
    Mr. Schwartz. That is correct.
    I can't explain, completely, why other governments are not 
doing what they should in this instance. But, I think we need 
to continue to press as hard as we can.
    The other thing I think we need to do is demonstrate 
leadership. This year, for assistance for Pakistan and 
Afghanistan, my Bureau will have spent about $150 million in 
fiscal year 2009. The numbers that are being discussed for 
fiscal year 2010 are not nearly that high. They are about half 
that total. We need to be prepared to expect the same level of 
need over those next 12 months. And I think we're going to have 
to figure out ways to demonstrate continued leadership on this 
issue.
    Senator Casey. Thank you.
    Mr. Brause, I wanted to----
    Mr. Brause. I just have----
    Senator Casey. I wasn't ignoring you. I was just----
    Mr. Brause. No, that's OK. I have to support what the 
Assistant Secretary said. We make every effort to encourage the 
other donors, whenever we meet with them in our bilateral 
meetings--there have also been numerous demarches--but, we 
can't wait to let the--wait for the other donors to respond. We 
do have to demonstrate leadership on these critical issues. And 
I think we will continue to do that.
    Senator Casey. Thank you. And I know I'm cutting our first 
panel short, but in order to get to the second panel, and not 
to interrupt them by leaving for a vote, I wanted to make a 
transition.
    Thank you both for your testimony, and especially for your 
public service at a critical time in our Nation's history, 
especially with regard to Pakistan and the challenges there, 
and as well as in the region.
    We will now move to our second panel, and I'll start, by 
way of introduction, so they can be seated in place for their 
testimony.
    I wanted to welcome our second panel. Our second panel will 
provide a nongovernmental perspective on the IDP challenge in 
Pakistan. We're fortunate to have two leading experts and 
scholars with us today.
    Our first witness is no stranger to this witness table, 
Ambassador Wendy Chamberlin, who has enjoyed a remarkable 
career, spending almost 30 years serving our Nation as a 
Foreign Service officer. She became the U.S. Ambassador to 
Pakistan in July 2001, only weeks before the terrible events of 
September the 11, 2001, transformed our bilateral relationship. 
Ambassador Chamberlin subsequently served in senior leadership 
positions at USAID and UNHCR before assuming the presidency of 
the Middle East Institute.
    Ambassador, thank you for being here.
    Our second witness, Imtiaz Ali, is a Jennings Randolph 
Senior Fellow at the U.S. Institute of Peace. Mr. Ali is a 
Pakistani journalist who has spent a significant amount of time 
in Pakistan's tribal belt bordering Afghanistan, and is one of 
the leading experts on the Taliban insurgency in Pakistan and 
its links with al-Qaeda.
    We welcome both witnesses today to proceed with their 
testimony. In the interest of time, I'd ask you to be as short 
as you possible can. Both of your statements will be submitted 
for the record.
    So, why don't we first start with Ambassador Chamberlin. 
Thank you so much for being here.

  STATEMENT OF HON. WENDY CHAMBERLIN, PRESIDENT, MIDDLE EAST 
    INSTITUTE, FORMER AMBASSADOR TO PAKISTAN, WASHINGTON, DC

    Ambassador Chamberlin. Thank you very much, Mr. Chairman. 
And I will try to be brief.
    I'll tell you, it's an honor to be here, and thank you for 
holding this hearing on such an important subject. And it's an 
honor for me to be here with Imtiaz Ali.
    Look, I'll try to make just a couple of points that I think 
were not made by my very able colleagues on the first panel.
    First, there are a number of positive developments as we 
look at the IDP situation, and they're worth mentioning. This 
has been the first time in recent history when most parts of 
the Pakistani society have come together in support of their 
government's operation against the militants. The--all parties 
conference, in April, followed by a religious conference of 
religious leaders. And then, the world opinion poll that we 
have remarked upon in the previous panel all show a solidarity 
of the people of Pakistan for the army's move into the region.
    Second, the army has showed resolve. It sent 15,000 troops. 
It put the lie to those that thought that it might not move, 
that there were elements within the army--that we've read about 
in the press, speculation--it might not move against the 
Taliban. They did. And they developed a hard smack to the 
Taliban, there.
    And third, there are factors within the Swat Valley that 
will make reconstruction a little bit easier than it would be, 
let's say, in FATA or Afghanistan. The highest literacy rates 
in Pakistan are in the Swat Valley. There's a large middle 
class from this area. And the infrastructure is more developed 
than it is elsewhere. Need to rebuild it, but at least it was 
there in the first place.
    But, there are points of concern, and I'll try to be very 
brief.
    One, yes, security, I agree, I don't think the security is 
there. People are returning, and it is not yet secure. The 
government is talking about doing the right things. It's 
talking about augmenting the police, doubling the salary, the 
miserable salaries that the police get. They're talking about 
doubling it and recruiting, to augment the police, from retired 
army sergeants. That's great, but it hasn't happened yet. We 
ought to be mindful of that.
    They're talking about establishing a cantonment--a 
permanent cantonment of military officers in the region to 
secure the area in case the Taliban come back. But, it hasn't 
happened yet.
    These are important. And it is exceedingly important that, 
as you point out--and I'd just like to underscore your point--
that you get the security piece right, because this feeds right 
into the Taliban narrative, that only they can provide 
security, that only they can provide law and order and justice. 
They have to do it their way, the harsh way. But, the 
government must move in, and it isn't, yet.
    I'd like to see a plan for rebuilding and reconstruction. 
I'm not sure there is one yet. We know it's going to require a 
lot of money. We've heard, on the previous panel, that the 
Congress has been extremely generous in the relief phase. But, 
we'll be entering into the reconstruction phase. That will 
require more United States funds, more Pakistani funds, more 
international funds. And, as yet, I'm not sure there's a very 
clear plan for reconstruction yet. That's another concern.
    And a final concern is to look a little bit longer into the 
future, Mr. Senator. And I will stop at this. But, there are--
with any major conflict and movements of refugees, there are 
social disruptions that the society never really bounces back 
to the way it was before. The way it was before in the Swat 
Valley was romantic. People went there for their honeymoons. It 
will never--every hotel has been damaged. It is unlikely that 
the landlords will return to the valley. It's been, 
traditionally, a feudal society. We saw the article, in the New 
York Times the other day, that the landlords have resettled and 
feel too unsafe to go back.
    But, what will happen, then? Because as landlords leave, as 
the feudal--in a feudal society, as they leave, the systems, 
the mechanisms, the social mechanisms for resolving disputes, 
et cetera, won't be there. And it offers--it opens up an 
opportunity--perhaps Imtiaz can speak to this--for the Taliban 
to move in, to do their own redistribution of land, to offer 
their own disputes settlement mechanisms. This can't be, 
because the army's move into this region just to defend a 
system that it can--that is a vacuum is not sustainable. We 
need to think about the unthinkable. You don't mention land 
reform in Pakistan, because so many of the elites and 
parliamentarians are landowners, and it has such an impact on 
other regions of the country. But, it's worth starting that 
dialogue.
    And then, my final point--because I see my light is 
flashing--is the poor. The poorest of the poor have left. They 
had nothing when they left, they have nothing now--except for, 
perhaps, $300, but only some of them have that--and they have 
nothing to go back to. We ought to consider the fact that 
perhaps they won't go back, that they will stay in the ridges 
of Pakistan, where they've sought shelter. These are impacted 
areas. And perhaps some of our assistance ought to be 
redirected to help those areas, as well.
    A lot more to say, but we can get to that in the question 
and answers.
    Thank you.
    [The prepared statement of Ambassador Chamberlin follows:]

Prepared Statement of Hon. Wendy J. Chamberlin, President of the Middle 
                     East Institute, Washington, DC

    Mr. Chairman, I would sincerely like to thank you for holding the 
hearing this morning aimed at calling attention to the humanitarian 
situation of internally displaced people in Pakistan. I welcome the 
opportunity to speak to the subcommittee on the compelling situation of 
internal refugees and to comment on measures the United States could 
take with the Pakistani Government to advance our mutual interests.
    Mr. Chairman, a great deal of international attention is riveted on 
the plight of the 1 million-plus refugees who were driven from their 
homes in Malakand Division last April. These refugees fled to avoid 
getting caught in the cross-fire as the Pakistani Army moved into the 
region to restore the writ of government.
    There are two other groups of internal refugees who add to the 
swollen numbers of people victimized by extremist actions. An estimated 
500,000 people left the Swat Valley region last year to escape the 
persecution of extremists affiliated with the TNSM. Often called 
``Taliban'' in our media, TNSM extremists, led by Maulana Fazlullah and 
supported by his father-in-law, Sufi Muhammed, openly targeted and 
terrorized anyone who resisted their harsh code of behavior and 
repressive rule including the Army, police, civil servants, and even 
little girls attending schools.
    Fighting between the Pakistan Army and Taliban leader Baitullah 
Mehsud in northern Waziristan drove a third group of several tens of 
thousands of refugees from their homes over a year ago. Substantial 
numbers have not yet found it safe enough to return home. All three 
waves of internal refugees are victims of extremist violence. All three 
groups need assistance from their government and international donors 
to provide security, rebuild communities, and reclaim lost livelihoods.
    Mr. Chairman, as the United States engages with the Government of 
Pakistan to assist civilian victims of terrorism, we must also be 
mindful that we are facing a common enemy. The militant fighters, who 
declared war on the Pakistan Government as the ``near enemy,'' also 
attack the United States and Western interests as the ``far enemy.'' 
While the Pakistan Army is making concerted progress toward routing the 
Taliban in Malakand, the threat in Waziristan, FATA and indeed, deep 
inside Pakistan's cities is still quite worrisome. Our immediate 
priority is to assist Islamabad to rebuild the Malakand Division so 
that the refugees can return in safety and dignity. At the same time, 
we must also prepare for the eventuality that other large groups of 
civilians in the future may have to flee extremist violence elsewhere 
in Pakistan.
    Mr. Chairman, there are a number of developments regarding the 
situation in the Swat Valley and Malakand Division that are positive.
    For the first time this last May the Pakistani public, security 
forces, and civilian political and religious leaders united against 
extremist groups and ideology that threatened the idea of Pakistan as a 
moderate, democratic state. Nearly all political parties joined the All 
Parties Conference in mid-May in support of the Army's push into Swat. 
A week later religious leaders led by cleric Sarfaraz Naeemi held a 
national conference and declared suicide bombings and beheadings to be 
un-Islamic. When extremists assassinated Sarfaraz Naeemi 2 weeks later, 
the overwhelming majority of Pakistan's public condemned the Taliban. A 
sea change in public opinion moved against extremist Taliban, as 
confirmed by the recent World opinion poll.
    A second point of optimism is that the Pakistan Army showed resolve 
in its operation against the Taliban in Malakand. Tamping down doubts 
that the Army would not move against the Taliban, the Army deployed 
15,000 troops. Militant fighters were hit hard and dispersed quickly. 
People are now returning.
    Third, the government understands the critical need to provide 
security for the people of Malakand and that local police play a unique 
role for domestic security. Islamabad has taken several landmark moves 
to augment local police by establishing a plan to engage retired Army 
sergeants and doubling police salaries that had been dismally low. The 
police augmentation has not yet been deployed. Cost and implementation 
difficulties are obstacles. Again, the United States should make police 
training a priority in its aid programs to Pakistan. A point that I 
cannot emphasize enough is that a surge in police is necessary but it 
should also be accompanied by an immediate deployment of judges and 
courts. The returning population must feel protected by all aspects of 
their government. A fourth point is that rapid reconstruction of 
infrastructure damaged by military shelling is vital for recovery and 
to solidify public confidence in the government. In many ways, the 
speed of recovery will define the success of the operation against the 
extremists. A great deal of work must be done, but some early reports 
are that rebuilding will be less difficult in the Swat Valley than in 
other conflict areas like Afghanistan or even FATA. The Swat Valley 
stands out in Pakistan for having a large middle class, high literacy 
rate, and relatively developed infrastructure.
    A final advantage as the people of the Malakand Division begin to 
return to their homes is that the United States is generously and 
swiftly preparing to provide substantial aid to rebuild. Secretary 
Hillary Clinton and Ambassador Richard Holbrooke have announced an 
additional $165 million in aid for immediate refugee and reconstruction 
needs. It is important that U.S. reconstruction teams be permitted to 
assess the damage so that American aid can quickly assist returning 
refugees. If U.S. and other international aid are used effectively, and 
there is no reason to think otherwise, the aid could have a stimulus 
impact on the local economy. However, there are a number of other 
issues that continue to raise concern.
    Security is still inadequate. The Pakistan Army hit the extremists 
hard, but there are credible reports that Taliban remnants have 
regrouped and are again targeting civilians, particularly those they 
believe supported the government. The military objective of 
establishing a ``cleared zone'' may not necessarily mean it is a ``safe 
zone'' for returning families. It is, therefore, encouraging that the 
Pakistani Army has understood the need to remain in the region for many 
months to assure security and is talking about maintaining 
semipermanent cantonments. Talk has not turned into a concrete plan and 
our government can help by providing protective gear and specialized 
equipment for the military in those areas.
    Related to the need for continued military presence is the 
requirement for an augmented community police force in anticipation of 
an uptick in crime as refugees return to the conflict areas. The local 
Pushtoon culture in the Malakand Division has a tradition of reprisals 
against perceived injustices to family members. Once people return, we 
could expect to see an upsurge in retaliatory violence against 
individuals and family members believed to be involved in the conflict. 
The government may want to consider programs to encourage 
reconciliation.
    A final concern is the likelihood that the conflict will have 
launched social forces that will permanently change the society and 
culture of the Swat Valley. The Pakistan people and government 
demonstrated solidarity in its action to prevent the spread of 
extremism, but there has been no public dialogue about the future of 
the region. The Swat Valley is well regarded as a favorite vacation 
spot for Pakistanis. It is also known for its feudal system, only 
recently integrated into the federal Pakistani state. Mr. Chairman, the 
Taliban have been very shrewd in winning support by exploiting local 
peasant resentment of a feudal system. If the government action is not 
more than reestablishing the status quo, little has been accomplished. 
Mr. Chairman, Pakistanis ought to engage in a serious dialogue on the 
future of feudalism in modern times. The issue of land reform has long 
been consider a ``no go subject'' within government circles dominated 
by elite landowners. The Taliban have demonstrated that the appeal of 
land reform to impoverished people is a powerful political motivator.
     I doubt the status quo is even a possibility. Many landowners who 
for centuries were at the center of administrative and judicial 
traditions, will not find it safe enough to return anytime soon. 
Targeted and terrorized by the extremists over the past year, tens of 
thousands had already moved their families from the region long before 
the April military operations. It is important that the government move 
swiftly to provide a responsive administrative and judicial system to 
fill a vacuum created by the breakdown of traditional mechanisms to 
resolve disputes. It goes without saying that failure to do so will 
provide an opening for the extremists who have proved adept in 
exploiting not only the people's resentment of feudalism, but also the 
modern state's inability to provide an efficient, just judicial system.
    A final word on permanent social disruption; there is a real 
possibility that the poorest of the poor may never return to their 
homes in the Malakand Division. Beyond the stipend of about $300 
provided by the government to refugee households, many of the poor do 
not have the means to return to their homes. They own nothing, and have 
no incentive to return. Some analysts speculate that many poor will 
remain in the districts and communities where they fled, thereby adding 
to the social burden of other affected areas in Pakistan. U.S. aid 
programs must consider aid projects throughout these regions as well.
    Mr. Chairman, as the committee requested, I would like to conclude 
with a few recommendations for the United States as it aims to 
ameliorate the suffering of Pakistan's internally displaced. My remarks 
will be addressed to the three Ds that Secretary Clinton has 
identified--development, diplomacy, and defense.
    Mr. Chairman, as an American citizen and one who understands the 
importance of our good relations with the Pakistani people, I am proud 
of the swift and generous support the Congress and our government have 
provided to meet the critical needs of destitute civilians displaced by 
war.
    Most of this aid is channeled through nongovernment organizations 
(NGOs) and the United Nations who are committed to working under 
dangerous conditions to help the needy.
     My recommendation is that we find a way to make the generousity of 
the American people more visible to the Pakistani public.
    Our recent experience during the 2005 earthquake relief operations 
proved that the Pakistani public is genuinely appreciative of American 
humanitarian and development aid. Favorable opinion of the United 
States more than doubled immediately after the earthquake emergency, 
greatly aided by then-President Musharraf who stood before the 
Pakistani media and called U.S. helicopters ``angels of mercy. Mr. 
Chairman, I agree with the position of InterAction, (an umbrella group 
of American NGOs), that U.S. aid should not be delivered with the 
purpose of ``winning hearts and minds.'' Aid rarely wins people over in 
military scenarios; and, importantly, ``winning hearts and minds'' for 
political purposes distracts from our central mission of administering 
to those in need.
    However, Mr. Chairman, I strongly believe that our Government's 
humanitarian and development aid projects should have an American face. 
Our people should work directly with those we are assisting. Yes, it is 
very risky for Americans to work in the field in places like Iraq, 
Afghanistan, and parts of Pakistan. For this reason only humanitarian 
volunteers should be asked to deploy in particularly dangerous areas. 
Far too many times, even volunteers are prevented from directly serving 
the neediest by our government, and in this scenario, by the host 
government. The point I would like to make is that we should have an 
informed dialogue on the levels of acceptable risk for our aid workers. 
U.S. officials are asked to stay behind compound walls when the aim is 
to help people in distress. There is a very large community of 
Pakistani-Americans who could help. Many are eager to serve both their 
country of nationality and the country of ethnic origin.
    Mr. Chairman, just as a large bulk of our funding for the internal 
refugees in Pakistan is delivered by United Nations Agencies and is not 
visible as aid from the people of the United States, another chunk of 
our aid passes through Pakistani Government ministries. I understand 
the value of using our aid to build the human and organizational 
capacity of federal ministries to manage projects. On the other hand, I 
also believe the Pakistani public would feel reassured if they saw more 
American citizens on the ground distributing aid directly to the needy.
    Mr. Chairman, turning to the second D of diplomacy, I believe 
Ambassador Holbrooke and Ambassador Anne Patterson are extremely 
effective representatives and are both highly regarded by the people of 
Pakistan. The paradox is that while the United States is doing more 
than any other nation to help the refugees and support the government's 
campaign against unpopular Taliban, the United States is still deeply 
distrusted.
    The World Opinion Poll conducted in May of this year reported that 
a very large majority of Pakistanis are united in supporting Army 
operations against the Taliban, are overwhelmingly against a Taliban 
regime ruling Pakistan, and reject al-Qaeda bases on Pakistani soil. 
Yet, at the same time, the same polls also found large majorities 
holding an unfavorable view of the current U.S. Government.
    The most persuasive explanation for this disconnect is that the 
historical ``trust deficit'' between our two governments and people is 
still quite pervasive. I believe the trust deficit is the single 
biggest obstacle to both our nations attaining our goal--the goal we 
share--of guaranteeing a stable, prosperous, democratic Pakistan. 
Effective public diplomacy can play a role in closing the trust gap.
    Pakistan has a vibrant and free press that has enormous influence 
over the population of 170 million. We saw the power of the Pakistani 
media in the swift reversal of public opinion in April after the media 
broadcast the savagery of so-called Taliban justice. Our public 
diplomacy could do more to address the disconnect between public 
rejection of the Taliban and public distrust of the one international 
partner who is doing the most to help Pakistan resist this extremist 
threat. We should carry our message directly to the Pakistani people 
through direct engagement with their own media and minimize coverage as 
part of our meetings with high ranking officials.
    Finally, on the third D of defense--a consistent element of the 
trust deficit is the stubborn view in Pakistan that the United States 
is a fickle ally. Most of the population believes we use Pakistan when 
it suits us and readily abandon our friend when we have achieved our 
objectives. They believe we will do so again by pulling up stakes in 
Afghanistan. A substantial element, although not all, of Pakistan's 
establishment believes there is an Israeli/Indian/American collusion to 
squeeze Pakistan from its eastern and western borders, break up the 
state, and seize its nuclear weapons.
    Nothing could be further from the truth. In fact, the United States 
and Pakistan are fighting a common enemy in both Pakistan and 
Afghanistan. We seek the same outcome--a stable prosperous and 
democratic Pakistan.
    My recommendation, Mr. Chairman, is that the United States speaks 
with one clear voice. Our consistent message is that we are joined with 
the Pakistanis against a common enemy. The Taliban and al-Qaeda are 
dead-end movements that threaten their people and state and force 
people to flee their homes. Our unfaltering message is that we will 
stay in Afghanistan until the extremist Taliban threat there is spent, 
however long it takes. Those within the Pakistani establishment that 
still cling to historic relations with Taliban as a hedge on the day 
the United States will leave the region must understand that that day 
will not come. We wish to work with a Pakistan ally that understands 
the value of our partnership and supports our joint efforts to defeat 
extremist who aim to bring down the Government in Islamabad and do harm 
to the far enemy in the West.

    Senator Casey. Thank you, Ambassador Chamberlin.
    And, Mr. Ali, welcome.

   STATEMENT OF IMTIAZ ALI, JENNINGS RANDOLPH SENIOR FELLOW, 
        UNITED STATES INSTITUTE OF PEACE, WASHINGTON, DC

    Mr. Ali. Thank you, Senator Casey and distinguished 
members, though there are no other members here at the moment. 
[Laughter.]
    Mr. Ali. I will be brief.
    Senator Casey. Let me say this for the record, though, we 
had seven Senators here today----
    Mr. Ali. OK.
    Senator Casey [continuing]. At various times. [Laughter.]
    And for those who keep score on subcommittee attendance, 
that's way above the average. [Laughter.]
    I do appreciate the colleagues who were here and----
    Mr. Ali. That came--yes.
    The most of the important points have already been 
addressed. I will be brief and will summarize my written 
remarks.
    One of the lesser known, but equally critical, facts about 
the IDP crisis, that less than 20 percent of the IDPs took 
shelter in the refugee camps, which were established by the 
Pakistani Government with the help of aid organizations. The 
majority of the IDPs have sought refuge in the homes of local 
Pashtun host families. And the Pashtun villages in Mardan and 
Swabi elders have assembled meetings and pooled their resources 
to provide shelter for the IDPs from Swat, despite their 
limited resources. Whenever people would talk about the IDPs or 
refugees, they were reminded, ``They--the Pashtun--are our 
host.''
    Last month, I went to Pakistan with Special Envoy 
Ambassador Richard Holbrooke as part of the Presidential 
mission to assist the IDP crisis. I went with Ambassador 
Holbrooke to the IDP camps in Mardan, and we talked to a number 
of people residing there.
    After the official trip, I stayed on for a few days to 
visit my hometown in District Mardan, which has a huge influx 
of the IDPs. I saw firsthand the hospitality my own village 
people extended to the IDPs from Swat. Lower and middle-class 
families in Mardan and Swabi districts shared food, bedrooms, 
and washrooms. When asked about the IDPs, even the poorest 
Pashtun in Mardan and Swabi said, ``They are our guests. Don't 
call them IDPs. Don't call them refugees. It is part of our 
Pashtun tradition and culture to help them out.''
    Now, we see that IDPs have started returning to their homes 
on July 13. And according to some official figures, 600,000 
individuals have, so far, been returned to Mingora, the capital 
of Swat, and to the adjacent areas in Swat and neighboring 
parts of Buner.
    What are the big challenges? First, the big challenge is 
security. Of course, IDPs want to go back to their homes. They 
want to live again in the place they lost to the Taliban 
militants. But, their concern is the resurgence of the 
militants. The big concern raised not only by the IDPs, but 
throughout Pakistan, is the threat of the Taliban leadership. 
If Maulana Fazlullah, the Taliban leader in Swat, and his top 
commanders are still at large, and they are able to make 
headlines through their audio messages and resurfaced illegal 
FM radio stations, then it will be hard for the IDPs or those 
who are still living in the camps with the host families, to go 
back.
    The second important challenge is employment and economic 
development. It is too early to assess the actual damages to 
economic development and employment. However, initial reports 
suggest large-scale destruction and robberies of businesses and 
homes. The government's initial figure mentioned losses to 
infrastructure of $390 million.
    The third important challenge is education. Close to 200 
girls' schools have been destroyed by the Taliban militants. 
This has left thousands of girls without any means of 
education. When the IDPs go back, there will be no schooling 
for many girls. That is a very important area.
    How was the response of the United States during this 
crisis? The United States has a good model: The 2005 earthquake 
in the northern Pakistan and Kashmir. It was the first time 
that America found a good rating among the Pakistani people for 
the work they did for the affected people in the earthquake 
zone.
    In my opinion, the Obama administration realized the scope 
of the IDP crisis quickly, and its response, thus far, has been 
encouraging. President Obama's special envoy went twice to the 
region to see the IDP situation. If local newspapers are to be 
believed, Ambassador Holbrooke spent more time in the refugee 
camps talking to the IDPs than the Pakistani politicians.
    Dr. Nasim Ashraf, of the Middle East Institute, who works 
with Ambassador Wendy Chamberlin, conducted a survey about the 
IDPs. He found that when Pakistanis were asked if they had 
received any help from the United States, 72 percent said, 
``No.'' He was quoted in a news article, saying, ``The common 
man in Pakistan doesn't know that, you know, Secretary Clinton 
here has announced $200 million, because they don't know that 
it ever gets there to them.'' This is a big dilemma for the 
United States. The people on the ground do not know about 
American aid. The Obama administration should work on how to 
reach out to the Pakistani people.
    In terms of recommendations, I suggest focusing on several 
key issues.
    Policing. This is a very critical area. The United States 
should help the NWFP and the Pakistani Government develop 
community policing at the village level. There is an urgent 
need for a strong, well-trained, and well-equipped police 
force. This is the case not only in the Swat Valley, but in the 
Frontier and the whole of Pakistan. When the Taliban extended 
their writ in Swat a few months ago, the police force 
completely collapsed and put up no resistance.
    Compensation. The United States should help the Pakistani 
Government and local NGOs give a compensation package to the 
victims of military oppression. The package should include 
enough money to reconstruct damaged homes, restart businesses, 
and meet the living requirements of a meaningful period for a 
time for the IDPs. The amount should be much larger than the 
current $312 for an IDP family, which the amount the Pakistani 
Government is providing at this time.
    Schools, Hospitals, and Roads. Most people are aware that 
the United States has been using drones and missiles in the 
tribal region to target and attack militants' hideouts. The 
attacks also sometimes have civilian casualties, loss of lives, 
and injuries to the civilian population, including woman and 
children. As a part of the rehabilitation of the IDPs, the 
United States should help rebuild schools, hospitals, and roads 
destroyed by the Taliban militants.
    Microfinance Banking. With the help of the Pakistani 
Government and NGOs, the United States can help launch 
microfinance facilities for the people of Swat and FATA.
    Local Pashtun Media. Establishing, promoting, and 
encouraging local Pashtun media is needed at this time. In the 
absence of a strong local Pashtun media, people of Swat and 
FATA have become a captive audience to the pirated Taliban FM 
radio stations. Fazlullah's radio station, which earned him the 
nickname of ``FM Mullah,'' contributed to the fall of Swat into 
the hands of the Taliban.
    Cultural Sport Activities. This area has been long ignored 
by the successive Pakistani regimes, as well as by the 
international donors. There is a lack of sports and cultural 
facilities for the youth in tribal regions and many parts of 
the NWFP. But, this is one of the potential areas in which a 
long-term investment can stop the drift of young people into 
extremism. I think the revival of a secular Pashtun culture and 
tradition is essential for stopping the march of the Taliban in 
the border region.
    In conclusion, I salute the IDPs and the rest of Pakistan's 
people, particularly the Pashtuns of Mardan and Swabi, for 
their sacrifices in helping the IDPs. The future of the war 
against terrorism in Pakistan now depends more profoundly than 
anyone expected on how well the situation of the IDPs is 
addressed. If properly treated, these Pashtuns can be a bulwark 
against Taliban militants. Irrespective of their ethnic 
background, the Pashtuns have long been accused as the 
supporters and sympathizers of the Taliban and
al-Qaeda. However, because of the IDP crisis, that situation 
has changed. Now they should be regarded as the bulwark against 
militants.
    I wish that all the people of Swat, Buner, and other parts 
of the tribal region will return to their homes and once again 
start living a peaceful life in their valley once known as the 
``Switzerland of Pakistan.'' Being a Pashtun myself, I would 
like to believe that one day they will say that during their 
most difficult times, not only the whole of Pakistan, but the 
whole world, stood with them.
    Thank you. And I look forward to your questions.
    [The prepared statement of Mr. Ali follows:]

Prepared Statement by Imtiaz Ali, Jennings Randolph Senior Fellow, U.S. 
               Institute of Peace (USIP), Washington, DC

    Thank you, Senator Casey and distinguished members of the 
subcommittee for providing me with the opportunity to testify before 
you on the IDP crisis in the Swat Valley and the North West Frontier 
province of Pakistan. This is a phenomenon that poses serious threat to 
Pakistan and ultimately to the American security interests, but if 
handled correctly, can be an opportunity to promote them.
    I am currently a Jennings Randolph Senior Fellow at the U.S. 
Institute of Peace. I am a journalist by training and have spent a 
great deal of time reporting on Pakistan's tribal belt and North West 
Frontier province along the Afghan border. The views I express today 
are my own and not those of the U.S. Institute of Peace, which does not 
advocate specific policy positions.
    As you know, the crisis in Pakistan is by most metrics the biggest 
internal displacement in recent history. According to Pakistani 
officials and several U.N. agencies, the number of people forced to 
flee since fighting began this spring between Taliban militants and the 
Pakistani Army is more than 2 million. Most of these refugees fled to 
the neighboring districts of Mardan and Swabi, the closest and most 
accessible regions still unaffected by the fighting.
    A lesser known, but equally critical fact, is that less than 20 
percent of the IDPs took shelter in the refugee camps set up by the 
government and aid organizations. Instead, the majority of the IDPs 
have sought refuge in the homes of local Pashtun ``host'' families. In 
many of the Pashtun villages in Mardan and Swabi, elders have assembled 
meetings and pooled resources to provide shelter for the IDPs from 
Swat, despite limited resources. Tellingly, these ``host families'' 
tend not to refer to the new guests as IDPs or refugees, but as 
community members entitled to the benefits of the centuries-long 
tradition of Pashtun hospitality.
    The Pakistani Government did a good job responding to this crisis, 
especially considering its limited resources--which is why it was 
compelled to solicit international aid. Though, many Pakistanis have 
mixed feelings about the fair distribution of aid and some other aid-
related concerns. However, it is clear that the overwhelming majority 
of the people supported military operations in the Swat Valley.
    Last month I went to Pakistan with the special envoy, Ambassador 
Richard Holbrooke, as part of the Presidential mission to look into the 
IDP crisis. I went with Ambassador Holbrooke to the IDP camps in Mardan 
and talked to a number of people residing there. After the official 
trip, I stayed on for a few days to visit my hometown in District 
Mardan, where I saw firsthand the hospitality my own village people 
extended to IDPs from Swat. Lower- and middle-class families in Mardan 
and Swabi districts shared food, bedrooms, and washrooms. When asked 
about the IDPs, even the poorest Pashtun in Mardan and Swabi said, 
``They are our guests. Don't call them IDPs. Don't call them refugees. 
It is part of our Pashtun tradition and culture to help them out.''
    And yet it was evident that hosting so many people has put an 
immense strain on these predominantly poor communities. Meanwhile, most 
of the well-intentioned national and international aid is being 
directed toward camps serving only a small portion of the community in 
need, with too few resources reaching the communities absorbing the 
majority of the IDPs. Many fallacious reports underrepresented the 
number of IDPs living with the local host families, which has led to a 
lack of focus on communities as de facto refugee camps.
    One attempted means of reaching out to the overwhelming majority of 
the IDPs in need of aid was to employ the network of District 
Government system led by an elected district Nazim (Mayor). But, it was 
not properly used because of an ongoing power struggle between District 
Nazims and the bureaucracy.
    Pakistani higher ups and international dignitaries paid visits to 
some of the camps which, in my opinion, were what I would call ``VIP 
Camps'' because they were set up as showcases with all the necessary 
facilities and more than enough food, deliberately hiding the real 
situation on the ground.
    Few of the influential people who have visited Pakistan have gone 
to see host families in order to thank them for their generosity in 
giving shelter to the IDPs in their moments of need. That said, this 
was a unique crisis in many ways: The sheer number of the displaced 
people, the speed of the mass exodus, and then the overwhelming 
response from the local people and the rest of Pakistan to support the 
displaced people.
    The problems of the displaced people are both short term and long 
term. In the short term, the problem was to provide immediate relief, 
especially shelter, food, drinking water, medicine, etc. That part will 
soon come to an end with the repatriation of the Swat IDPs. However, 
the long-term problem is a daunting task: The IDPs need rehabilitation 
in their hometowns and substantial help is needed to rebuild and 
reconstruct the damaged infrastructure.
    IDPs started returning to their hometowns on July 13 and, according 
to official figures, over 600,000 individuals have so far been returned 
to Mingora, the capital of Swat, and to the adjacent areas in Swat and 
neighboring parts of Buner. However, the problem is still far from 
over.

                          THE CHALLENGES AHEAD

    As the intensity of military operation in the Swat Valley winds 
down and the displaced people make their way back to their hometowns, 
the next phase involving the rehabilitation of the IDPs is expected to 
be as challenging as the first phase of immediate relief. The 
provincial government in the North West Frontier province (NWFP) has 
set up a Provincial Relief, Rehabilitation and Settlement Authority 
(PaRRSA) which, according to official statements, will be responsible 
for planning and coordinating the overall rehabilitation and 
resettlement of internally displaced persons and reconstruction of the 
areas affected by military operations. PaRRSA is part of the Provincial 
Disaster Management Authority (PDMA)--a separate body already set up 
for dealing with the IDPs issue.
    IDPs will face three immediate problems when returning and reaching 
their home areas:

  <bullet> Security;
  <bullet> Economic development and employment;
  <bullet> Education.

              SECURITY--TALIBAN LEADERSHIP STILL AT LARGE

    Of course, IDPs want to go back to their homes. They want to live 
again in the place that they lost to the Taliban militants. The 
Pakistani Government has also been telling people that most areas have 
been cleared of militants and now they can go back to their homes. 
However, despite the government claims of clearing Swat from militants, 
many IDPs regard the situation as somehow deceptive--people are still 
confused about whether to return or not, mainly because of the security 
concerns.
    Repatriation of the IDPs to their hometowns will largely depend on 
the security situation. The Army claims that militants have been routed 
from most parts of Swat. Local journalists have confirmed that several 
important Taliban commanders have been killed and many had been 
arrested during the operation. According to them, however, the 
situation is still far from stable. Still, there are some pockets of 
resistance that scare the returning IDPs. Reports reaching Washington 
suggest that Taliban militants are still holding their positions in the 
Kabal area of Swat. However, the big concern raised by not only the 
IDPs but throughout Pakistan is the fate of the Taliban leadership. If 
Maulana Fazlullah--Taliban leader in Swat--and his top commanders are 
still at large and they are able to make headlines through their audio 
messages and sometimes through their resurfaced illegal FM radio 
stations, then it will be hard for those IDPs who have gone back to 
safely live there, and next to impossible for those who are still in 
the camps and with host families to safely return.
    A shortage of food and continuous curfew in many areas where people 
have recently returned are also serious problems. Curfews prevent 
people from leaving their homes after dark in Kabal, Matta, Kanjoo, 
even though a family member may have become seriously ill. When those 
still living in camps come to know about this situation, they will 
likely be frightened and reconsider returning.
    Another problem, as I see it, is that many of the politicians and 
landlords with second homes in Islamabad or Peshawar have also left 
Swat in the wake of fighting and are not willing to go back. They are 
influential layers of society. If they do not return, the ordinary 
people will be unable to ward off the militants, especially when the 
top leadership of the Taliban is still intact.
    Not only the people of Swat, but the overwhelming majority of 
Pakistanis has been demanding a more effective military operation 
against the Taliban so that the militants and their leadership do not 
find ways to flee the conflict areas and then filter back into Swat 
Valley when quiet has returned. This is, I believe, a critical issue in 
the wake of unprecedented sacrifice by the IDPs.

                  ECONOMIC DEVELOPMENT AND EMPLOYMENT

    It is too early to assess the actual damages to economic 
development and employment. However, initial reports suggest large-
scale destruction and robberies of businesses and homes. The 
government's initial figures mention losses to infrastructure at $390 
million. Crops have been ruined in many areas. According to local 
journalists, the Army has now told people not to grow the maize (corn) 
crop this season because it is used by Taliban as cover to hide 
themselves in the fields. But, people say they have no other means of 
ensuring sufficient food and if the government stops them from sowing 
maize and other food crops, then the government should support them 
with cash to support their families. In this situation, many people who 
go back to their homes in farming areas will not have jobs or crops in 
their fields. This is one of the most important areas to be addressed.
    By some conservative estimates, the rehabilitation of the IDPs will 
cost billions of dollars. Earlier estimates mentioned by the government 
were over $60 billion--both infrastructure and compensations. However, 
assessments are underway and new figures are yet to be made public. The 
government has provided IDPs families with ATM cards each worth $312.00 
(25,000 Pakistani rupees) to get cash for their daily use. Twenty-five 
thousand Pakistani rupees is fine for a few days when a family goes 
back to its ruined home, but it cannot feed a family for any longer 
period of time. Many families have problems getting the cards because 
of wrong registration numbers, nonregistration as IDPs, etc.

                               EDUCATION

    Close to 200 girls' schools have been destroyed by the Taliban 
militants. This has left thousands of girls without any means of 
education. Reconstructing schools and providing security necessary for 
parents to be comfortable sending their daughters to school is a 
significant project in its own right. Before the uptick in violence, 
around 70,000 to 80,000 girls were enrolled in schools in the Swat 
district. Following Taliban threats, many stopped going to school 
because of fear for their safety.

                     IDPS CRISIS--THE U.S. RESPONSE

    The United States was a good role model of 2005 earthquake in 
northern Pakistan and Kashmir when it acted expediently and tactfully 
and found a favorable rating among Pakistanis for the first time in 
recent history. This spring the United States was again presented with 
an opportunity to prove itself a positive force when the IDP crisis 
began in the northwest of Pakistan. The United States has a much bigger 
opportunity today to improve its image in a region that is reeling 
under the deep-rooted anti-Americanism.
    In my view the Obama administration realized the scope of the 
crisis quickly and its response thus far has been encouraging. 
President Obama's special envoy went twice to the region to see the IDP 
situation. If local newspapers are to be believed, Ambassador Holbrooke 
spent more time in the refugee camps talking to the IDPs than the 
Pakistani ruling elites did. Secretary of State Hillary Clinton 
announced a ``Text Swat'' SMS campaign--whereby you could text the word 
``SWAT'' to the number ``20222'' and $5 would be donated to the U.N. 
Pakistan Relief Fund to provide food, water, medicine, clothing, 
shelter, and other basic necessities to the IDPs.
    These efforts are commendable, and to those in Pakistan that are 
aware of them, an example of the United States capacity and inclination 
to render aid. Still, there is a persistent question of whether the aid 
has been effective, especially whether it has gone to the right people.
    It's pertinent to mention here that Nasim Ashraf, executive 
director of Pakistan Studies Center at the Middle East Institute, has 
been quoted in the media that he has conducted a survey about the IDPs 
and found that when they were asked if they had received any help from 
the United States, 72 percent said ``No.'' He was quoted in a news 
article saying, ``The common man [in Pakistan] doesn't know that, you 
know, Secretary Clinton here has announced $200 million [dollars of 
aid] because they don't think that it ever gets there to them.''
    This is a big dilemma for the United States. The people on the 
ground do not know about American aid. The Obama administration should 
work on how to reach out to the Pakistani people.

            SUGGESTIONS FOR THE BEST UTILIZATION OF U.S. AID

    Winning hearts and minds of the Pakistani people will take years 
and will require long-term as well as short-term policies.
    Policing: United States should help the NWFP government develop 
community policing at the village level to give people a sense of 
security. There is an urgent need for a strong, well-trained and well-
equipped police system in the Swat Valley that can resist intimidation 
and overcome violence on the street. When the Taliban extended their 
writ in the Swat region few months back, the police force completely 
collapsed and put up no resistance. One sympathizes with the ill-
prepared and ill-equipped policeman confronting the relatively well-
equipped and adept Taliban fighters. There has already been an interest 
on the part of the U.S Government in reforming the Pakistani police 
system. However, the fall of the Swat to the Taliban and now its 
takeover by the Pakistan Army makes it urgent to have a strong regular 
police force in the valley to protect the return of militancy. The Army 
can launch military operations at anytime, but its police 
responsibility is to maintain law and order and do the routine 
patrolling in the streets and keep a vigilant eye on miscreants and 
militants. The Pakistani Government has decided to increase the number 
of police stations and police forces in Swat in order to fulfill the 
requirements of the people. The United States can assist in these 
efforts.
    Compensation: The United States should help the Pakistani 
Government and local NGOs to give a compensation package to the victims 
of military operations. The packages should include enough money to 
reconstruct damaged homes, restart businesses, and meet the living 
requirements for a meaningful period of time as former IDPs get back on 
their feet. It should be much larger than the current amount of $312 
for a family that can range in size from 4 to 8 and sometimes 10 
members. Since Pakistani Government officials have a trust problem due 
to the widespread accusations of corruption even in this humanitarian 
crisis, I suggest that it would be useful to involve local NGOs in Swat 
and the Malakand region to help conduct loss assessments and then 
involve local community leaders for the distribution of financial and 
other aid and rehabilitation support.
    Schools, Hospitals, Roads: Most people are aware that the United 
States has been using drones and missiles in the tribal region to 
target and attack militant hideouts. The attacks also incur collateral 
damage--loss of lives and injuries to innocent civilians including 
women and children. As a part of the rehabilitation of the IDPs, the 
United States should help rebuild schools and hospitals destroyed by 
the Taliban militants. This will be a great help to the people of war-
hit areas of Swat and other parts of the tribal region. The United 
States should also help the Pakistani Government rebuild the destroyed 
buildings from the Swat conflict on an accelerated basis.
    Microfinance/Banking: With the help of the Pakistani Government and 
NGOs, the United States can also help launch microfinance banking 
facilities for the people of Swat and FATA to create sustainable 
livelihood opportunities, including support farmers, small industries 
and skill development programs for men and women. Local NGOs can be 
involved in the interest-free loans for launching small businesses.
    Local Pashtun Media: Establishing, promoting and encouraging local 
Pashtun media is needed at this time. In the absence of a strong local 
Pashtun media, people of Swat and FATA have become ``captive audience'' 
to the Taliban-pirated FM radio stations. Fazlullah's FM radio station, 
which earned him the nickname ``FM Mullah,'' contributed to the fall of 
Swat into the hands of the Taliban. A local independent Pashtun media 
is necessary to provide alternative radio stations and content that 
people will want to listen to. This will also help improve the U.S 
image in the long run by engaging Pashtuns in the political discourse. 
A Pashtun media would ultimately support Pashtun nationalism, which is 
one way to help combat Taliban militancy. I would argue that a Pashtun 
social movement is needed to raise the voices for their identity, 
culture, and heritage--which are the antithesis of the Taliban.
    Cultural/Sports: This area has long been ignored by the successive 
Pakistani regimes as well as international donors. There is a lack of 
sports and cultural facilities for the youth of tribal region and many 
parts of NWFP. But this is one of the potential area in which a long-
term investment can stop the drift of young people to extremism. The 
revival of secular Pashtuns culture and traditions is must for stopping 
the march of Taliban in the border region.

                               CONCLUSION

    In conclusion, I salute the IDPs and the rest of the Pakistani 
people, particularly the Pashtuns of Mardan and Swabi for their 
sacrifices in helping the IDPs. I must say that the future of the war 
against terrorism in Pakistan now depends more profoundly than anyone 
expected on how well the situation of IDPs is addressed. If properly 
treated, these Pashtuns can be a bulwark against Taliban militants, 
irrespective of their ethnic background. The Pashtuns have long been 
accused as the supporters and sympathizers of Taliban and al-Qaeda 
militants. However, because of the IDP crisis that position has changed 
and now they should be regarded as the bulwark against militants. I 
wish and pray that all the people of Swat, Buner, and other parts of 
the tribal region will return to their homes and once again start 
living a peaceful life in their valley once known as Switzerland of 
Pakistan. Being a Pashtun myself, I would like to believe that one day 
these IDPs will say that during their most difficult times, not only 
the whole of Pakistan but the world, stood with them.

    Senator Casey. Mr. Ali, thank you very much.
    We have to take a break to vote, and we'll resume in a few 
minutes. I do want to thank our ranking member, Senator Risch, 
for being here. We both have to vote now. We'll come back, and 
I'll have at least three questions, and then we'll be able to 
wrap up.
    So, if anyone needs a break, this is the time to take it.
    Thank you.
    [Recess.]
    Senator Casey. OK, thank you very much. We'll resume. And 
thank you for allowing me to vote. Pretty important thing to do 
around here.
    We're grateful for both of our witnesses and for your 
statements. And, of course, your full statements will be in the 
record of this hearing.
    I wanted to focus, Ambassador Chamberlin and Mr. Ali on the 
question of the possible scenario that was outlined by Rebecca 
Winthrop, of the Brookings Institution. Her assessment, which 
is an assessment which is counterintuitive--but, she asserts, 
in her recent piece, that the scale and magnitude of the 
current IDP crisis in Pakistan could present an unexpected 
opportunity to improve the lives of woman and children in 
Pakistan. She cited the lessons of humanitarian crises in other 
places, like Darfur and Afghanistan. And the essence of her 
argument is this. The disruption of established family and 
community structures that occurs during a mass displacement 
allows women to assume new roles and freedoms. The IDP camps 
may facilitate greater access to schooling.
    A, What do you think of that analysis? And b, Could you 
provide your perspective, not just on that theory or that 
analysis, but how would you recommend structuring U.S. and 
international assistance to the IDP population in a manner that 
enhances the role of women and enhances the protections 
provided to children? I know it's not an easy question, but----
    Ambassador Chamberlin. No, no, it's--I'm happy to have it. 
It's an exciting question. I both disagree and agree with what 
she's saying.
    My experience--3 years' experience with UNHCR and close-
hand experience with a number of refugee situations in the 
world, I tend to agree with her overarching theory, and perhaps 
even for other situations within Pakistan, but not this one.
    As I said earlier, Swat Valley and the Malakand district, 
but Swat particularly, is an exceptional little pocket in 
Pakistan, where you had higher education, some of the highest 
literacy, some of the highest literacy for women, already, 
there. You had a thriving middle class--larger, more productive 
than in other places of Pakistan. And you had infrastructure, 
you had girls' schools.
    One of the reasons, of course, why the Taliban attacked 
girls' schools in this area--over 300, I think, was the 
statistic--is because they--these extremists tend to get a lot 
of money from external donors for the madrassas. So, if they 
discourage the public schools and the girls' schools by blowing 
them up, you're going to funnel more students into the 
madrassas. And I heard a statistic from one very prominent 
Pakistan economist, who said that it can be as high as $10,000 
per student in the madrassas, donations coming in from the 
gulf. So, that's not going to stop just because people are no 
longer in the area where they had schools and are now in camps 
where they don't have schools.
    I believe that the opportunities that present themselves by 
this disruption will be if you actually begin to reform some of 
the institutions in the area that the Taliban had truly 
exploited to win the allegiance of the peasants. Land reform, I 
mentioned in my statement, is one of them.
    But, if nothing is done to reform some of the institutions 
that the Taliban are exploiting, if all of this is nothing more 
than the defense of the status quo, then people will return to 
the same situations, the Taliban will return to the same 
situation, and we will have a long-term problem.
    But, in terms of women's schooling, it was better before.
    Senator Casey. Mr. Ali.
    Mr. Ali. I agree with the Ambassador. First of all, Swat 
had some of the best schools in the Frontier Province.
    In terms of the IDPs' situation and providing schooling to 
the girls, I visited a couple of the IDP camps, and there was 
some schooling system for girls. But, the problem is, as I 
mentioned before, less than 20 percent of the IDPs are living 
in the camps. So, you can provide schooling to those who are 
living in the camps, with the help of UNHCR or some other 
donors. But what to do with the other IDPs who are living with 
the host families? There is no school system for them. And that 
is a big challenge.
    Senator Casey. Thank you very much.
    I wanted to also ask you about--as we've heard this 
morning--the asserted policy of the Pakistani Government to 
support a quote ``voluntary, safe, and dignified returns.'' 
But, in the North West Frontier Province, the provincial 
government, in conjunction with the United Nations, illustrated 
their commitment to supporting voluntary returns with the 
signing of a Returns Policy Framework. However, the reality on 
the ground doesn't necessarily reflect that policy. NGO groups 
on the ground have reported people being denied assistance in 
the camps, and have been told they will not be eligible for 
further assistance unless they return home.
    I'd ask both of you about whether or not--and I'm assuming 
the answer is ``Yes''--but, whether or not our government 
should be concerned that the Pakistani Government will not 
guarantee the voluntary, safe, and dignified return of 
displaced people, and how our government can best encourage the 
Pakistani Government to give meaning to that asserted policy.
    Ambassador, do you have a sense of that, or do you have an 
opinion on that?
    Ambassador Chamberlin. Yes, thank you for the question. I 
think there are a number of things that the United States can 
do in partnership with the Pakistan Government.
    You know, I don't think that we're in disagreement with the 
Pakistan Government on this. I think the Pakistan Government 
would also like to see the people return as quickly as possible 
so that the problem not fester. The Pakistan Government and the 
United States would--knows that they must return in security. 
The question is, How do you provide that security?
    The ideas are there. I mentioned, in my opening statement, 
the idea is to augment the police force, recruit retired army 
sergeants, increase the salary--they're all there. The idea of 
posting a permanent cantonment of Pakistani Army--it's there. 
The money is not. The training for the police is not. The money 
for the salary is not there. These are things that we can do, 
with the Pakistan security forces, to assure security for the 
people. It's actually past due, because people are going home 
to less-than-secure areas, as I said in my statement. The idea 
of a cleared zone may not be the same thing as a safe zone. 
But, that doesn't mean that we shouldn't ramp up now, appeal to 
the Congress for perhaps some more money, both for the midterm 
for security and for the long-term reconstruction.
    Senator Casey. Let me have Mr. Ali respond.
    Mr. Ali. Well, in terms of the distribution of aid, you 
first mentioned it. For example, when I went to the IDP camps 
with Ambassador Holbrooke, there were concerns about aid 
distribution. This is a huge crisis and there will be this 
element of corruption and these things. But, I think the crisis 
is so huge. Still, the United States and the international 
community should come forward to help the Pakistani Government.
    There are two ways to provide aid. One is through the 
government agencies, and the other is through the NGOs. There 
will be this element, again and again, of corruption. You 
cannot eliminate that element. But, one way is to work with the 
Pakistani Government to help establish its legitimacy and its 
writ. It is a matter of writ why the United States is helping, 
why this whole issue is now before us. It is because the 
Pakistani Government lost its state in Swat Valley. And that is 
why now the Pakistani government is trying to reestablish its 
writ.
    And the other way to provide aid is to work with the local 
NGOs. There will be concerns. But, still we have to deal with 
this problem, because this is a huge problem. As I mentioned, 
it will decide the future of the war on terror in Pakistan.
    Senator Casey. I guess, just as a followup to that, is this 
a question of whether or not the government's going to be 
committed to that kind of safe return? Is this a lack of 
commitment by the Pakistani Government when that happens, or is 
it a lack of both commitment and the resources that the 
Ambassador mentioned? Do you have any sense of that?
    Ambassador Chamberlin. Yes. I think it's a little bit of 
both, sir. The community policing throughout Pakistan has been, 
by anybody's judgment, miserably weak. So has the court system; 
the judicial system's judges have been very, very weak as you 
go further into the countryside. You have your elite police 
corps in Lahore. You have the tollway police, that are first-
rate. But, community policing throughout rural Pakistan, almost 
not there at all. It's an institution that, nationally, must be 
strengthened as one of the important components to a rule of--a 
system that's based on rule of law.
    The other component, of course, is courts and judges, also 
extremely weak. These two weaknesses have been exploited by the 
militants, who can go into rural areas and say, ``Look, you 
don't have a government, you don't have access to courts or 
judges for your land disputes or for whatever disputes. We will 
provide shariah law, our law, our version of shariah law, for 
fast, swift judgments.'' And in a vacuum, it's preferable. And 
in a vacuum, people prefer, sometimes, a harsh policing, 
provided by the Taliban, to nothing at all. So, in many ways, 
it's not reestablishing policing or reestablishing of court 
systems, it's establishing it in the first place. And this 
could be true in many places in Pakistan.
    It's going to require enormous investment. I've argued, 
since I was there as Ambassador in 2001, that that ought to be 
an American priority. We don't have an institution in the 
United States that does police training, frankly. AID ought to, 
in my opinion, but, for a number of reasons since the 1970s, 
has been prohibited from doing police training. It's not well 
located in the Pentagon. Secretary Gates agrees with that, 
although the Pentagon did do a great deal of it during Iraq and 
Afghanistan. And, of course, the State Department does 
diplomacy.
    So, I think we ought to think about how we can structure 
ourselves to support police training and police aid in a 
country where it needs it so badly. And I would suggest--my own 
personal view is that we build up that capacity within USAID.
    Mr. Ali. Senator, let me reinforce the point Ambassador 
Chamberlin raised about the policing. It is critically 
important. I think what happened in Swat Valley is just a 
snapshot of the whole of Pakistan. It can happen anywhere, 
because the police system is not well trained. It is not 
trained for that purpose. It is supposed to be the first line 
of defense against militants, miscreants but it is not used for 
that purpose. It is highly politicized. The only purpose of the 
police system in Pakistan is when the politicians and ministers 
use it for their political vested interests. So, it is not 
being used for the purpose we are talking about here. I think 
we need to inject some new thinking into the Pakistan police 
system, reform it, and make it a better line of defense against 
the militants. And Swat Valley can be the first place where one 
can have this role model.
    Senator Casey. I wanted to ask you a question about the 
role played by the Pakistani military in this refugee crisis. 
The very real potential for failing to allow local and 
provincial entities to hold up their end of the bargain, so to 
speak, to be as helpful as they can be to organize relief 
efforts, Do you buy that theory, that if the military gets too 
involved, they don't allow other entities within Pakistan to 
fulfill their responsibilities or to take over the work that 
the military obviously plays a role in but can't carry on its 
own, in addition to the fact that if the military is spending a 
disproportionate amount of time on relief efforts, it will be 
less and less effective on the battlefield? What's your sense 
of that?
    Ambassador Chamberlin. Mr. Senator, I find the current 
situation in Swat to be very different from our recent 
experience with the earthquake emergency, which was also run 
very effectively by the military. But that was a natural 
disaster, this is a security situation, and the military has a 
role, but its role is security. We've just had an exchange. I 
think both of us, all of us, agree that much more can be done 
to provide security, and ought to be done; that there is a 
challenge to the military to step up even more to provide 
security, to stay and provide security for the people who are 
returning.
    But, yes, I think that--I believe that if we simply--if we 
don't use this crisis to actually build the kind of 
infrastructures that the Taliban are exploiting with the 
peasantry there, then we're actually deeper in the hole, and 
that, yes, local government infrastructures ought to be built, 
capacities ought to be raised. But, I also believe that the 
United States ought to have a face in it. We ought to be 
visible.
    Senator Casey. Mr. Ali.
    Mr. Ali. Again, it is a security problem and the military 
will be there. For example, when the IDPs are returning, they 
will need security on the way back to their homes. There will 
be convoys of the army or the paramilitary that should 
accompany them back to Swat Valley. However, as far as their 
involvement in the relief and distribution of aid is concerned, 
what I saw in the IDP camps was them just holding security. I 
mean, they were responsible for the security of those refugees 
in the IDP camps, for example, where the VIP people were 
visiting. So, they were there for that purpose. The civilian 
administration is there. They are actually in charge of the 
refugee camps. For example, if you are going to an IDP camp, 
you have to make a call to someone in charge of the IDP camp 
who most probably will be a civil servant.
    Senator Casey. Well, thank you very much. I know we have to 
wrap up sooner than we might have thought. I know you both have 
very busy schedules. We're grateful for your presence here, and 
your testimony and your commitment on educating those of us on 
Capitol Hill about these issues, and especially appreciate the 
time you gave us when we had to go and vote.
    So, on behalf of Senator Risch, our ranking member, who's 
with us today, as well as members of our subcommittee, thank 
you very much.
    Mr. Ali. You're welcome.
    Ambassador Chamberlin. Thank you.
    Senator Casey. We're adjourned.
    [Whereupon, at 12:07 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
